 Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




External Quality Review of Dialysis Facilities

        A Call For Greater Accountability




                  JUNE GIBBS BROWN
                   Inspector General

                        JUNE 2000
                       OEI-01-00050
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston regional office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General and Joyce M. Greenleaf, M.B.A., Assistant Regional Inspector
General. Russell W. Hereford, Ph.D., also contributed to this report. Principal OEI staff
included:

BOSTON                                                      HEADQUARTERS

Aimee L. Kasenga, Program Analyst                  Bambi D. Straw, Program Specialist
Lynne G. Dugan, Program Analyst




           To obtain copies of this report, please call the Boston Regional Office at 617-565-1050.
               Reports are also available on the World Wide Web at our home page address:

                                      http://www.dhhs.gov/progorg/oei
                        EXECUTIVE                        SUMMARY

PURPOSE

          To assess external mechanisms the Health Care Financing Administration relies upon to
          monitor the quality of care provided by dialysis facilities to Medicare beneficiaries with
          end-stage renal disease.

BACKGROUND

Importance of External Quality Review

          Case files, performance data, and marketplace realities underscore the importance of
          external quality review of dialysis facilities. Case files reveal numerous instances of poor
          care. In one instance, we found that a patient received a drug overdose that resulted in
          prolonged bleeding and subsequent hospitalization. Performance data collected from
          dialysis facilities reveal that a substantial portion of patients do not achieve the outcomes
          recommended by clinical practice guidelines. Similarly, scientific studies suggest
          variation in the quality of care patients receive. Of particular note is one that revealed
          higher mortality rates at facilities providing lower doses of dialysis. Finally, marketplace
          pressures triggered by growth, consolidation, competition, and concerns about containing
          costs have caused service disruptions that can and have jeopardized patient care.

External Review Bodies

          The Health Care Financing Administration (HCFA) relies upon two major entities to
          conduct external reviews of dialysis facilities: the End-Stage Renal Disease (ESRD)
          Networks established under the Social Security Act and the State survey agencies.
          HCFA contracts with the 18 Network organizations, which are governed primarily by
          renal professionals associated with facilities in the Network’s region, to perform multiple
          functions, mostly oriented around collegial efforts to promote improvement in the quality
          of care and to respond to complaints lodged by patients, staff, and others. HCFA funds
          the State agencies, typically within departments of public health, to perform a more
          regulatory role: to conduct Medicare certification surveys of facilities and to investigate
          complaints, both in accordance with the Medicare Conditions for Coverage for dialysis
          facilities.

This Inquiry

          In our inquiry, we relied on a rich variety of data sources. We reviewed and analyzed
          HCFA’s database on State survey agencies; conducted a survey of all 18 Networks;


External Review: A Call for Greater Accountability   1                             OEI-01-99-00050
          visited 5 Networks; held extensive telephone discussions with representatives of another
          8; reviewed the complaint logs of 9 Networks; observed a State survey of a dialysis
          facility; interviewed staff at 5 State survey agencies; interviewed many stakeholders
          representing national organizations; and reviewed Federal documents and pertinent
          literature.

FINDINGS

The major strength of the external oversight system is the use of standardized
performance measures to encourage improvements in the quality of care.

    <	 HCFA-generated data show measurable improvements in clinical outcomes at the national
       and regional levels.

    <	 Network quality improvement projects show improvements at the regional level and, in
       some cases, at the facility level.

Yet, that system of oversight falls short in several respects.

          Standardized performance measures are rarely used to hold individual facilities
          accountable.

          <	    HCFA does not require the collection of a core set of facility-specific clinical
                performance measures.

          <	    Without such a set, Networks and States have limited means of identifying poorly
                performing facilities.

          <	    A few Networks do collect facility-specific performance measures, but have limited
                authority to use them to correct poor performance.

          <     Networks and State agencies rarely share facility-specific data with one another.

          <     Facility-specific performance measures are not publicly disclosed.

          The complaint systems serve as unreliable means for identifying and resolving
          quality-of-care concerns.

          <	    Both patients and staff tend to be reluctant to lodge complaints because of concerns
                about the possible consequences for them.

          <	    States and Networks conduct few investigations of complaints concerning the quality
                of care. In 1998, State survey agencies conducted about 250 on-site investigations;
                the Networks, about 35.

External Review: A Call for Greater Accountability   2                               OEI-01-99-00050
          <	    States and Networks rarely conduct joint complaint investigations or share
                information on their own investigations.

          Medicare certification surveys play a limited role in ensuring dialysis facilities meet
          minimum standards.

          <	    The elapsed time between Medicare certification surveys conducted by the State
                survey agencies is increasing. In 1995, 20 percent of all facilities were not surveyed
                within 3 years; by 1998, that increased to 44 percent.

          <	    Medicare Conditions for Coverage for dialysis facilities provide an inadequate
                foundation for accountability.

          <	    State survey agencies have difficulty maintaining the expertise of surveyors, largely
                due to the infrequency of surveys.

          Medical injuries are not systematically monitored. HCFA does not require the
          Networks, the State agencies, or facilities to identify and analyze medical injuries
          attributable to the care provided to the patient as opposed to the patient’s underlying
          condition.

HCFA does little to hold the Networks and State survey agencies accountable for
their effectiveness.

          Minimal assessment of Networks’ performance. Although HCFA receives regular
          information from Networks, it provides little substantive evaluation and feedback to
          them. HCFA does not hold Networks accountable for how facilities fare on performance
          measures.

          Minimal assessment of State survey agencies’ performance. HCFA has few means to
          evaluate the content or quality of the surveys the State agencies conduct on behalf of
          Medicare. HCFA no longer validates surveys and rarely observes surveys in action.

          Minimal public disclosure. HCFA, the Networks, and the States disclose little
          information to the public on actions taken to protect dialysis patients.

RECOMMENDATIONS

          Our review indicates that the external review system carried out on HCFA’s behalf by the
          Networks and the State agencies has major shortcomings. It is imbalanced, in that it
          stresses improving overall quality more than enforcing minimum requirements that
          protect patients from harm. It is fragmented, in that Networks and State agencies rarely
          coordinate their efforts. And it lacks sufficient accountability on the part of the
          Networks, the State agencies, and, most of all, the facilities.

External Review: A Call for Greater Accountability   3                             OEI-01-99-00050
          As HCFA provides leadership to address these shortcomings, we suggest that it (1) steer
          external oversight of the quality of dialysis facilities so that it reflects a balance between
          collegial and regulatory modes of oversight, and (2) foster greater collaboration between
          the Networks and State survey agencies. Specifically, we offer the following
          recommendations.

RECOMMENDATION 1. HCFA should hold individual dialysis facilities more fully
accountable for the quality of care they provide.

    <	 Revise the Medicare Conditions for Coverage for dialysis facilities so that they serve as a
       more effective foundation for accountability.

    <	 Use facility-specific standardized performance measures to encourage facilities to improve
       the quality of care and to help ensure facilities meet minimum standards. Regularly issue
       reports incorporating comparative performance data and make them available to the
       facilities, the Networks, the State agencies, and the public.

    <	
    < Strengthen the complaint system for dialysis patients and staff. Work with Networks and
       State agencies to develop an integrated complaint system that incorporates the following
       elements: accessibility, objectivity, investigative capacity, timeliness, responsiveness to
       complainants, enforcement authority and follow-up, improvement orientation, and public
       accountability.

    <	 Enhance the role of Medicare on-site certification surveys by determining an appropriate
       minimum cycle for conducting the surveys and conduct pilot tests to determine the
       potential of Network and State joint initial certification visits of dialysis facilities.

    <	 Facilitate the development of publicly accountable means for identifying serious medical
       injuries and analyzing their causes. Work with the Networks to establish pilot projects.

RECOMMENDATION 2. HCFA should hold the Networks and State survey
agencies more fully accountable for their performance in overseeing the quality
of care provided by dialysis facilities.

    <	 Issue policy guidance delineating the distinctive roles of the Networks and State survey
       agencies and providing direction on how they should collaborate.

    <	 Foster greater accountability of the Networks by developing a performance-based system
       for evaluating them and by increasing public disclosure of information on them.

    <	 Foster greater accountability of the State survey agencies by establishing better means for
       assessing State surveys and by increasing public disclosure of information on the extent,
       nature, and results of the surveys.



External Review: A Call for Greater Accountability   4                              OEI-01-99-00050
COMMENTS ON THE DRAFT REPORT

          We received written comments on the draft report from the Health Care Financing
          Administration, the Forum of End Stage Renal Disease Networks (the Forum), the
          Association of Health Facility Survey Agencies (AHFSA), and the American Association
          of Kidney Patients (AAKP). Overall, the reports received wide support. In the body of
          the report we summarize the major comments and offer our responses. Based on the
          comments, we changed one recommendation and made several technical changes.

HCFA’s Comments

          HCFA largely agreed with our recommendations. In response, HCFA offered a detailed
          action plan that addresses each of our recommendations. The plan demonstrates HCFA’s
          commitment to publicly releasing facility-specific performance data, revising the
          complaint process, increasing on-site surveys, holding Networks more accountable for
          performance of their facilities, and assessing the performance of State surveys agencies.
          HCFA did take issue with our recommendation calling for Networks and State agencies
          to conduct joint surveys for initial certification visits.

          HCFA’s action plan is a positive step toward implementing our recommendations and
          we urge HCFA to give it a high priority. In response to HCFA’s concern about joint
          surveys, we changed our prior recommendation from one requiring such surveys to one
          urging that they be conducted on a pilot basis.

External Organizations’ Comments

          The external organizations supported the majority of findings and recommendations but
          also raised some concerns. The Forum expressed concern that some of our
          recommendations, especially the public release of facility-specific performance data ,
          threaten patient confidentiality and undermine the collegial nature of the Networks.
          AHFSA expressed concern about the lack of funding for State survey agencies and
          AAKP urged that funding for strengthening oversight not come at the cost of patient
          activities.

          We recognize patient confidentiality is critical, but we believe that mechanisms can be
          devised to ensure patient confidentiality. We want to emphasize that the Networks
          should not only take a collegial approach with facilities, but also must be willing to take
          more regulatory actions when warranted or to inform others, such as the State, that can
          take such actions. Finally, we recognize the significance of the concerns about funding.
          We address AHFSA concerns about the funding for State agencies by calling for HCFA
          to determine an appropriate minimum cycle for conducting surveys and we underscore
          AAKP’s point that funding for oversight activities should not jeopardize patient care.




External Review: A Call for Greater Accountability   5                           OEI-01-99-00050
                        TABLE                        OF              CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


PRIMER ON DIALYSIS TREATMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


THE IMPORTANCE OF EXTERNAL QUALITY REVIEW . . . . . . . . . . . . . . . . . . . . . . . 11


FINDINGS


          Use of performance data to encourage improvements . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Performance data rarely used to hold facilities accountable . . . . . . . . . . . . . . . . . . . . . 13


          Unreliable means for identifying and resolving complaints . . . . . . . . . . . . . . . . . . . . . 15


          Limited role of Medicare surveys . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          Medical injuries are not systematically monitored . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


          Lack of accountability of the Networks and State survey agencies . . . . . . . . . . . . . . . 20


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35


APPENDICES


          A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38


          B: Major sources of clinical performance data for ESRD . . . . . . . . . . . . . . . . . . . . . . 40


          C: Comments on the draft report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42


          D: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61





External Review: A Call for Greater Accountability               6                                         OEI-01-99-00050
                                     INTRODUCTION

PURPOSE

          To assess external mechanisms the Health Care Financing Administration relies upon to
          monitor the quality of care provided by dialysis facilities to Medicare beneficiaries with
          end-stage renal disease.

BACKGROUND

          About 3,200 dialysis facilities provide ongoing, life-sustaining dialysis treatments to about
          230,000 patients with end-stage renal disease, or permanent kidney failure. Many of
          these patients are suffering from other complicated diseases such as diabetes and
          hypertension, and nearly all of them are Medicare beneficiaries. To foster improved care
          and minimize risks to patients, dialysis facilities conduct their own internal monitoring
          efforts. External review provides an additional safeguard.

External Review Bodies

          The Health Care Financing Administration (HCFA) has the primary responsibility of
          ensuring beneficiaries receive appropriate care in dialysis facilities. To carry out the bulk
          of the oversight activities for dialysis facilities, HCFA relies upon two entities, End-Stage
          Renal Disease (ESRD) Networks and State survey agencies.

          ESRD Networks. The 18 regional Networks are HCFA’s main contractors for
          monitoring dialysis facilities, as they are the only entities created for and entirely devoted
          to the ESRD program. Federal statute requires Networks to assure the “effective and
          efficient administration of the benefits” provided under the ESRD program.1 Network
          staff, typically 7 to 10 people, work closely with their board membership made up of
          local renal professionals. HCFA requires the Networks to conduct at least one HCFA-
          approved quality improvement project a year, to collect HCFA forms from facilities, and
          to resolve patient complaints. Networks also assist and educate facilities on issues
          related to quality improvement.

          State Survey Agencies. HCFA relies upon State survey agencies, typically within
          departments of public health, to conduct Federal certification surveys and investigate
          complaints, both in accordance with the Medicare Conditions for Coverage. The
          Conditions for Coverage dictate the obligations of facilities under the Medicare program
          and are used by State surveyors to certify facilities.2 Some State agencies have additional
          functions under their own State licensure program.3




External Review: A Call for Greater Accountability   7                      OEI-01-99-00050
External Quality Review Framework

          We have identified four key elements that can be applied to any external quality review
          system for health care facilities. This framework is meant to be used by purchasers, such
          as Medicare, to ensure that dialysis facilities provide quality care, and by consumers, such
          as ESRD beneficiaries, concerned about the quality of care they receive in their facility.
          Each element in the framework provides a different perspective on the quality of care.
          For a comprehensive and effective external quality review system, all components need to
          be adequately addressed. Throughout our inquiry we relied on this framework to assess
          the overall effectiveness of the external review system for dialysis facilities.

                         Table 1. External Quality Review Framework for Dialysis Facilities


         Element                                                    Description

 Use of standardized           Standardized performance measures allow purchasers, consumers, and overseers to
 performance                   compare the performance of facilities or physicians. The comparison can examine a
 measures                      single facility over time or one facility against another. Such measures can be used for
                               quality improvement activities and to enforce minimum standards.

 Response to                   Complaints can come from patients, staff, and other interested parties. They can be of
 complaints                    a particular instance of care or about broader matters concerning a facility’s
                               performance. The response to complaints can range from an off-site follow-up to an
                               on-site investigation. The process can trigger corrective actions and system
                               improvements.

 On-site                       On-site surveys can be either announced or unannounced. Surveyors observe the
 surveys                       conditions of the facility and equipment and interview patients and staff. The process
                               can trigger corrective actions and system improvements.

 Response to medical           Medical injuries are adverse events attributable to medical management and unrelated
 injuries                      to the patient’s illness or underlying condition. The response to such events can range
                               from minimal to thorough and can trigger corrective actions and system
                               improvements.



Medicare Coverage of ESRD

          In 1972, Medicare began providing coverage to individuals with ESRD making it the
          only entitlement criteria for Medicare based solely on a disease category.4 Medicare
          covers all treatment methods for patients: hemodialysis, peritoneal dialysis, and renal
          transplants. Patients receiving hemodialysis, the most common method, typically receive
          treatment in outpatient facilities three times a week. Peritoneal patients typically perform
          daily treatments at home and rely on outpatient facilities for ongoing support. (See
          Primer on Dialysis.) Medicare covers dialysis services performed by hospital-based and
          free-standing facilities. Hospital-based facilities are financially and organizationally
          integrated with a hospital whereas free-standing facilities are not.5


External Review: A Call for Greater Accountability          8                          OEI-01-99-00050
Our Inquiry

          Our report focuses on the two main entities the Federal Government relies upon to
          oversee dialysis facilities: the State survey agencies and the Networks. We did not
          evaluate the activities of any one Network or State, rather, we assessed if the activities of
          the Networks and States overall create an effective external review system for dialysis
          facilities. Also, we did not evaluate the adequacy of the Medicare on-site survey process.
          This report is one of two from our overall inquiry. Our companion report, External
          Quality Review of Dialysis Facilities: Two Promising Approaches, presents two
          innovative initiatives used to monitor facilities.

          We surveyed all 18 Networks, reviewed their annual reports for 1997 and 1998, and
          reviewed their responses to complainants for 1998. With eight Networks we held
          telephone interviews and reviewed their complaint logs for 1998. We also visited an
          additional five Networks. Over the course of these visits we spoke with patients,
          Network staff, and renal professionals (e.g., administrators, nephrologists, social
          workers, dieticians, nurses, and technicians.) We also analyzed data on the frequency of
          Medicare surveys, interviewed staff at 5 State survey agencies, and observed a survey in
          a dialysis facility.

          Throughout our inquiry we interviewed HCFA personnel, including the project officers
          for the Networks. We also spoke with several renal professional organizations and
          patient advocacy groups. Finally, we conducted a review of scientific literature and
          Federal documents. (See appendix A.)

          In the next section, we provide a brief overview underscoring why external quality review
          is so important as a patient protection mechanism. Then we present our findings and
          recommendations.

          We conducted this study in accordance with the Quality Standards for Inspections issued
          by the President’s Council on Integrity and Efficiency.




External Review: A Call for Greater Accountability   9                     OEI-01-99-00050
                                    PRIMER ON DIALYSIS

TYPES OF TREATMENT

Dialysis is the process of removing toxins from the body by diffusion across a semipermeable membrane, thereby
compensating for kidney failure. There are two types of dialysis:

          Hemodialysis. Removal of toxins directly from the patient’s blood stream, requiring direct access to the
          bloodstream. The patient’s blood is cycled through an artificial kidney, an external machine, that
          removes the toxins and excess fluids from the blood. The artificial kidney machine uses a semipermeable
          membrane, called a hemodialyzer, to filter out the toxins from the blood.

          Peritoneal dialysis. Utilizes the patient’s natural peritoneal membrane, located in the abdominal cavity,
          to remove toxins and excess fluids.

COMMONLY USED PERFORMANCE MEASURES

Adequacy. Refers to the amount of toxins, such as urea and creatinine, removed from the body during dialysis.
<	
< Urea reduction ratio (URR) and Kt/V. Two measures used to measure adequacy in hemodialysis patients
   based on the removal of urea. The URR is a function of the amount of urea removed during dialysis, as
   determined by the pre- and post-dialysis blood urea nitrogen levels. The Kt/V is a function of the amount of
   urea removed multiplied by the time on dialysis, divided by the volume of urea distribution, or approximately
   the amount of water in the body. The National Kidney Foundation’s Dialysis Outcomes Quality Initiative
   (DOQI) practice guidelines recommend a Kt/V of at least 1.2, or an average URR of at least 65 percent for the
   minimum delivered dose of hemodialysis.
< Creatinine clearance and Kt/Vurea. Two measures used to measure adequacy in peritoneal patients.
<	
   Creatine clearance measures the removal of creatine and Kt/Vurea measures the removal of urea. DOQI
   recommends a weekly dose of continuous ambulatory peritoneal dialysis of at least 2.0 per week and a creatine
   clearance of at least 60L/week/1.73 m2.

Anemia management. Anemia, or inadequate red blood cells, is a common concern among dialysis patients.
< Hematocrit and hemoglobin. Two measures of the severity of anemia. Hematocrit measures the ratio of red
<	
   blood cells to the plasma volume, and hemoglobin measures the amount of a specific protein in red blood cells
   that carries oxygen. DOQI recommends a target range of 33 percent to 36 percent for hematocrit and between
   11 g/dL to 12 g/dL for hemoglobin.
< Ferritin level and transferrin saturation (TSAT). Two measures used to monitor the level of iron. Ferritin
<	
   is a measure of the level of iron stored within the body and TSAT is a measure of iron immediately available
   to produce red blood cells. DOQI recommends a ferritin level of $100 ng/mL and a TSAT $20 percent.

Vascular access. The point of direct access to the blood stream for hemodialysis. There are three types:
< Catheter. A tube is placed in a blood vessel, primarily used for temporary access to the blood stream.
< Native arteriovenous fistula. A patient’s own artery and vein are joined surgically to allow arterial blood to
<	
   flow through a vein, usually placed in the forearm and takes several weeks to mature. DOQI guidelines
   recommend that primary fistulas be placed in at least 50 percent of new patients.
< Synthetic arteriovenous graft. A synthetic blood vessel is used to surgically join the patient’s artery and
<	
   vein, usually placed in the forearm and takes several weeks to mature.

Nutrition. Inadequate nutrition is a common concern among dialysis patients.
< Serum albumin level. A measure of the level of proteins in the blood.


External Review: A Call for Greater Accountability      10                         OEI-01-99-00050
       THE IMPORTANCE OF EXTERNAL REVIEW

          Many dialysis facilities and corporations conduct their own internal quality monitoring
          and improvement projects. However, in order to protect patient safety, it is essential that
          an external oversight system exists to provide objectivity and public accountability that
          internal quality reviews lack. Below we present four key factors that underscore the need
          for external oversight in dialysis facilities.

Instances of Poor Care

          Although dialysis treatment and patient outcomes have improved since the ESRD
          program began, much can and has gone wrong in facilities. Several well-publicized
          events in the media and in letters from patient advocates have documented cases of
          patient harm and have questioned the systems in place to protect patients.6 In the course
          of our review of documents we came across several examples where patients were put at
          risk due to inappropriate treatment. In our review of documents from the States and
          Networks we learned of cases where a patient received another patient’s hemodialyzer,
          putting him at risk for blood-borne diseases; a patient in cardiac arrest was put at risk as
          facility staff searched for a misplaced code cart; a patient was exposed to a toxic
          disinfectant through his bloodstream when hooked up to a reused hemodialyzer that had
          not been rinsed properly;7 a patient received a drug overdose that resulted in prolonged
          bleeding and subsequent hospitalization; several patients received blood transfusions
          when a facility ran out of the appropriate medicine to treat anemia; and a patient’s
          infected catheter was not removed in time, causing the patient to die of infection.

Vulnerable Patient Population

          Dialysis patients are a vulnerable patient population that is growing. Many dialysis
          patients are elderly and suffering from other complicated illnesses such as diabetes and
          hypertension. Overall, the ESRD population is growing at a rate of 7 percent a year and
          for some of the more vulnerable types of patients, the growth rate is even higher.8 More
          importantly, dialysis patients depend on regular dialysis treatments for survival. In the
          words of one physician, dialysis is “intermittent, ambulatory life support.”

Variation in the Quality of Care

          HCFA’s data indicate that a significant portion of dialysis patients fail to meet clinical
          practice guidelines developed by the National Kidney Foundation Dialysis Outcomes
          Quality Initiative. For the last quarter of 1998, 20 percent of a national sample of
          hemodialysis patients did not meet the guidelines’ recommendation for the minimum dose
          of dialysis as measured by the Kt/V ratio.9 For the same period, 41 percent of
          hemodialysis patients failed to achieve a hemoglobin level that met or exceeded the target
          range recommended by the guidelines.10

External Review: A Call for Greater Accountability   11                    OEI-01-99-00050
          Scientific literature also suggests variation in the quality of care dialysis patients receive.
          Several studies have shown that mortality rates vary significantly among facilities, even
          after adjusting for patient characteristics such as age and diabetes.11 Other studies have
          shown variation at the patient and facility level in the delivered dose of dialysis.12 One
          recent study found that higher mortality rates at facilities were associated with lower
          delivered doses of dialysis, after adjusting for patient characteristics.13 This same study
          also found that free-standing facilities, as opposed to hospital-based facilities, and lower
          amounts of physician supervision were associated with increased mortality rates.
          Another study found that patients treated in for-profit versus non-profit facilities had a 20
          percent higher mortality rate and 26 percent lower rate of enrollment on a waiting list for
          a kidney transplant.14 The investigators of this study concluded, “Greater oversight or
          competing incentives to improve quality may be necessary to ensure that cost
          containment is not so extensive that it affects patient outcomes adversely.”15

Marketplace Pressures

          The dialysis industry has grown significantly in recent years. The number of dialysis
          patients grew from about 160,000 in 1992 to 230,000 in 1997, the number of dialysis
          facilities increased from about 2,000 to over 3,000 — averaging about 200 new facilities
          each year.16 Most of this increase in facilities occurred among free-standing as opposed
          to the more traditional hospital-based facilities that receive an additional layer of
          oversight as part of the hospital. About 78 percent of dialysis patients receive treatment
          in free-standing facilities.17 Moreover, through a series of mergers and acquisitions, there
          has been increased consolidation in the ownership of the facilities. About 54 percent of
          dialysis patients receive treatment in facilities owned by one of three multi-national for-
          profit corporations.18

          Along with growth and consolidation, the dialysis treatment environment is characterized
          by at least three other increasingly prominent forces: (1) increased competition for
          patients, (2) heightened concerns to contain costs,19 and (3) increased difficulty in finding
          and retaining experienced nurses and technicians in an increasingly competitive
          marketplace. Individually and cumulatively, these forces have caused service disruptions
          that can and have jeopardized patient care.




External Review: A Call for Greater Accountability   12                     OEI-01-99-00050
                                                FINDINGS

The major strength of the external oversight system is the use of
standardized performance measures to encourage improvements in
the quality of care.

HCFA’s performance data show improvements.

          HCFA’s Clinical Performance Measures Project collects a set of performance measures
          annually on a national sample of dialysis patients.20 HCFA disseminates data to facilities
          that show national trends and Network variation. These data can serve as a stimulus for
          facilities to examine their own performance and to assess how it can be improved. The
          data show consistent improvements nationwide in patient outcomes since the project
          began in 1994. The percentage of patients achieving a mean urea reduction ratio $65
          percent has increased from 43 percent in 1993 to 74 percent in 1998. Similarly, the
          percentage of patients achieving a mean hematocrit >30 percent has increased from 46
          percent in 1993 to 83 percent in 1998.21 Even though these data are not facility-specific,
          Networks have drawn on these performance data to assess the overall performance of
          facilities in their region and to identify topics for regional quality improvement activities.

Networks’ performance data also show improvements.

          Networks through quality improvement projects and ongoing initiatives, collect
          performance data from facilities to help stimulate improvements. For example, one
          Network quality improvement project resulted in a 20 percent increase in the number of
          patients receiving the hepatitis B vaccine.22 Another Network project helped decrease
          the percentage of patients with inadequate peritoneal dialysis from 31 percent to 20
          percent.23 Several Networks have shown similar improvements by collecting and
          disseminating regularly a set of facility-specific measures; one Network even disseminates
          physician-specific reports.24

Yet, the current system of oversight falls short in several respects.

Standardized performance data are rarely used to hold individual facilities
accountable.

          No requirement to collect a core set of facility-specific performance measures.
          Several entities, including HCFA, collect facility-specific performance data. (See
          appendix B.) However, these measures are housed across several databases, collected
          using different methodologies, and designed for different purposes. Networks have some
          access to these measures. States have almost no access. HCFA has not

External Review: A Call for Greater Accountability   13                     OEI-01-99-00050
          established a facility-specific core data set that all facilities must report to one central
          location directly under HCFA’s control. The closest that HCFA has come is the Clinical
          Performance Measures Project, but it is not facility-specific. On their own a few
          Networks collect facility-specific data, but this effort is limited to the facilities in their
          region.

          The two main barriers reported by Networks to collecting facility-specific data are limited
          resources and no HCFA requirement. Networks are funded through statute. Statute
          requires that 50 cents of the composite rate facilities receive for each treatment goes
          towards the Networks.25 Networks are not appropriated funds. Many Networks may not
          have the resources to collect and analyze additional data. Also, without a HCFA
          requirement, Networks do not think facilities will submit facility-specific data regularly.

          Difficulty identifying poor performers. Without a national facility-specific core data
          set, most Networks and States are left with limited means of assessing the performance of
          individual facilities within their regions. In the few instances where Networks collect
          their own set of facility-specific data, they are left without comparable national data.
          Facility-specific data are necessary to identify facilities that are well below the regional
          mean or the accepted standard of care. Few Networks take full advantage of existing
          facility-specific data that they have access to and few Networks have a formal process for
          identifying outliers. HCFA does not require Networks to establish quantitative criteria to
          identify poor performers using existing facility-specific data. Networks complain that
          existing facility-specific data are limited, because they are too old, inaccurate, and not
          designed for performance assessment.

          Limited Network authority to correct poor performers. Networks lack the authority
          to impose sanctions directly on facilities. In the cases where facilities are not cooperative
          or fail to make improvements, Networks must rely on either HCFA or the State survey
          agencies to take enforcement actions. Networks either can recommend to HCFA that it
          sanction a facility, or Networks can recommend to a State survey agency that it conduct
          a review of a facility. However, we found that some Networks are reluctant to make
          recommendations to HCFA or the State survey agencies for several reasons.26 First,
          problems identified by the Networks may not fall directly under the Conditions for
          Coverage that HCFA and the States must rely upon when sanctioning a facility. Second,
          HCFA and the States are limited in the types of enforcement actions they can take.27
          Finally, Networks reported cases where HCFA and the States did not adequately follow-
          up with the Networks recommendations, leaving some Networks to conclude that
          referrals are futile.28

          Instead Networks typically seek to work with the facility collegially to correct the
          problem. Such efforts are likely to involve a meeting with key staff to discuss the
          facility’s performance data and brainstorm about potential causes and solutions. In some
          cases, the Network will ask a facility to prepare a corrective action plan and will then


External Review: A Call for Greater Accountability   14                     OEI-01-99-00050
          monitor adherence to that plan. Networks reported that, in most instances, this approach
          is successful.

          Little sharing of data between Networks and State survey agencies. The Networks,
          as we noted, tend to have little facility-specific data to share. But even in cases where
          they have such data, they are not inclined to share it with the State agencies. In response
          to our survey of Networks, only 3 of the 18 reported that they routinely share facility-
          specific data with the States.

          We identified two major barriers to Networks sharing data with the States. First,
          Networks fall under confidentiality laws that exempt them from Federal disclosure laws.29
          As such, Networks are reluctant to share data with the States because of concerns about
          eventual public disclosure. Second, Networks are concerned about the States using the
          data to take punitive actions. Networks officials fear that if the data are used in this way
          they will undermine their quality improvement efforts and their trusting relationships with
          facilities.

          With respect to State agencies, information they collect as a result of their surveys of
          dialysis facilities could be useful to the Networks. But, even though much of this is
          public information, it does not tend to be shared with the Networks on a regular or timely
          basis.

          Minimal public disclosure. Currently, neither HCFA nor the Networks make any
          facility-specific performance measures readily available to the public. HCFA does
          disclose facility-specific cost reports on its website, but this information requires some
          manipulation before it can provide useful performance data.30 Networks, as we have
          previously mentioned, are exempt from public disclosure by statute. HCFA and others
          do disclose to the public data aggregated at the Network and national level, and in some
          cases, at the State level. Networks are especially reluctant to release facility-specific data
          to the public for fear of misinterpretation and of undermining internal quality
          improvement efforts. Most States will disclose survey results upon request.

The complaint systems serve as unreliable means for identifying and resolving
quality-of-care concerns.

          Throughout this report we use the term complaints generically to include concerns
          brought forth by patients, staff, or other individuals.

          Barriers to lodging complaints. Two basic barriers inhibit patient complaints about the
          quality of care. First, dialysis patients find it difficult to complain about an individual or
          facility providing treatment that their lives depend upon. Network officials, other renal
          professionals, and patient representatives stressed that fear of retribution deters patients
          from complaining. The second major barrier is limited patient information and
          understanding about the technical aspects of their care. For example, a previous Office
          of Inspector General study found that although 73 percent of all patients reported

External Review: A Call for Greater Accountability   15                     OEI-01-99-00050
          knowing there was a recommended level of adequate dialysis, only 36 percent could
          correctly identify the urea reduction ratio or the Kt/V as the test used to measure
          adequacy.31

          In many respects, the staff in dialysis facilities are in the best position to lodge complaints
          about continuing problems with the quality of care in a facility. But as we were often
          reminded, staff also face significant deterrents to lodging complaints; such actions could
          put their jobs at risk and brand them as a trouble-makers, thereby jeopardizing future
          employment in the field.

          Network officials are aware of and often sympathetic to these barriers. But, in general,
          their policies and practices make the barriers even more imposing. First, they tend to
          discourage confidential complaints by stopping investigations short if complainants are
          unwilling to allow their name to be disclosed to the facility in question. Networks
          reported that it is difficult for them to investigate complaints fully without disclosing the
          complainants name to the facility. (Neither Networks nor States will release a
          complainant’s name without consent.) Second, about half of the Networks require
          grievances to be in writing, before they take any action, unless it involves a life-
          threatening situation even though HCFA policy states that it is not necessary.32 Finally,
          Networks, and even more so the States, conduct little outreach to inform, let alone
          encourage, patients or staff to use the complaint system. The information that the
          Networks provide tends to be limited to posters sent to facilities and information packets
          sent to new patients. We found little evidence that Networks or States convey to patients
          that the complaint system is an important safeguard.

          Limited investigations. HCFA looks to the State survey agencies to investigate
          complaints that involve life-threatening situations or possible violations of the Medicare
          Conditions for Coverage. The States conduct investigations on site that focus on the
          specific Medicare Conditions for which compliance is in question. If State surveyors
          believe it is warranted, they can extend the complaint investigation into a complete
          Medicare certification survey. Although HCFA has established complaints investigations
          as a top priority for States, the number of complaint investigations States conduct each
          year is minimal.33 In 1997 and 1998, when about 230,000 dialysis patients received
          treatment under the auspices of about 3,200 dialysis facilities, we found that the States
          conducted only about 260 complaint investigations each year.

          HCFA looks to the Networks to play a broader and a more front-line role in responding
          to complaints. Networks receive complaints covering a wide range of issues related to
          patient care and sometimes refer complaints to the States involving life-threatening
          situations or possible violations of the Medicare Conditions.34 States also receive
          complaints directly.

          Little national information is available on how many and what kind of complaints the
          Networks handle.35 In an effort to gain some understanding of Network complaints, we
          conducted our own analysis of nine Network complaint logs for 1998. We found that

External Review: A Call for Greater Accountability   16                     OEI-01-99-00050
          these nine Networks combined received over 700 complaints. However, the majority of
          these complaints did not involve quality-of-care concerns. About 45 percent were
          actually requests for information and 13 percent involved concerns expressed (typically
          by staff) about disruptive patients. Of all the complaints, 25 percent concerned service
          quality (e.g. temperature of facility, waiting times, friendliness of the staff) and 15 percent
          technical quality (e.g., clinical care, adequacy of equipment).36

          In response to our survey, the 18 Networks reported that they investigated 170
          complaints in 1998, only 34 of which involved a site visit. Most Networks encompass
          many States and have limited resources for in-depth complaint investigations. Network
          investigations, in accord with HCFA instructions, typically facilitate quick resolution
          between the complainants and the facilities. Networks address most problems by
          working collegially with facilities. We also found that Networks rarely conduct (or have
          the resources to conduct) pattern analyses to identify trends in complaints with the intent
          of identifying and correcting systematic problems.

          Fragmented process for responding to complaints. Working single-handedly, neither
          the States nor the Networks can tap the full potential of a complaint system that
          effectively addresses quality-of-care concerns. Through their board membership,
          Networks have important clinical expertise in nephrology that gives them substantial
          ability to assess and follow up complaints regarding the adequacy of the clinical care
          being provided. But the Networks have little authority to enforce corrective actions.
          The States, on the other hand, have enforcement authority for violations of the Medicare
          Conditions for Coverage, but tend to lack the clinical expertise concerning renal care.
          Little coordination occurs between States and Network. The Networks do refer to the
          State agencies complaints which concern the Medicare Conditions. We found that in
          1998 each Network referred, on average, three complaints to the States. But, the
          Networks report that the State agencies do not routinely inform them of the results of
          complaint investigations or even whether they conducted an investigation. Similarly,
          Networks themselves do not tend to be any more forthcoming in informing the States of
          their own investigations. In the same vein, Networks and State agencies seldom
          undertake combined investigations in response to complaints about the quality of care.37

Medicare certification surveys play a limited role in ensuring facilities meet
minimum standards.

          HCFA relies solely upon the State survey agencies to conduct on-site certification
          surveys to ensure a facility’s compliance with the Medicare Conditions for Coverage.38
          States conduct an initial survey of all newly established facilities to ensure that they meet
          minimum standards. Thereafter, States conduct recertification surveys to ensure ongoing
          compliance. Both surveys, particulary the recertification surveys, provide an opportunity
          to examine the actual day-to-day practices of the facility. Some of the major components
          of a dialysis facility survey include: examining the reuse of hemodialyzers and water
          treatment areas, interviewing patients and staff, observing personnel, and reviewing
          patient medical records and personnel files.

External Review: A Call for Greater Accountability   17                     OEI-01-99-00050
          The elapsed time between Medicare surveys is increasing. In 1995, 20 percent of

          ESRD facilities had not been

          surveyed in the past three years.39

          By the end of 1998, that number

          had grown substantially to 44

          percent of facilities not receiving a

          survey in the past three years. 

          (See figure 2.) Ten percent of

          facilities had not been surveyed in

          6 years or more by the end of

          1998. The average elapsed time

          between surveys had doubled

          between 1994 and 1998, from

          once every 1.7 years in to once

          every 3.4 years40 In fact, during

          1998, States surveyed only 17

          percent of facilities. This is a

          dramatic decrease compared to

          1993 when over 50 percent of

          facilities received a survey.41


          A major reason for the decline in

          ESRD surveys is competing
                                        Source: HCFA’s OSCAR data
          budget demands.42 Nursing homes

          and home health agencies both

          have mandatory survey cycles established by Congress.43 As a result, nursing homes and

          home health agencies receive funding priority over ESRD facilities, which lack such a

          mandate. In addition, ESRD facilities are included under the category of non-long term

          care providers, which also includes non-accredited hospitals, psychiatric hospitals,

          ambulatory surgical centers, and hospices. All of these providers compete for the same

          pool of resources allocated by HCFA. Currently, non-long term care facilities appear

          tenth on a list of 12 HCFA workload priorities for State agencies.44


          Medicare Conditions for Coverage for dialysis facilities provide an inadequate

          foundation for accountability. Established in 1976, the Conditions fail to reflect major

          changes in the delivery of dialysis services, in the organizational auspices of dialysis

          facilities, and in the concepts of quality oversight and quality improvement. During our

          inquiry, the following emerged as particularly notable shortcomings:


          <	
          <     The facility governing body is insufficiently accountable for the quality of care
                facilities provide. The Conditions do not explicitly hold the governing body
                accountable for overall patient care and outcomes.45 In practice, responsibility is
                often diffused among administrators and distant parent corporations. At times, this
                makes it difficult for the Networks and State survey agencies to get timely
                information and sustained attention to corrective actions.

External Review: A Call for Greater Accountability   18                   OEI-01-99-00050
          <	
          <     The medical director has limited authority and as such is inadequately
                accountable for the quality of care. Medical directors and Network officials often
                stressed to us that medical directors tend to exert little influence over the day-to-day
                care offered in dialysis facilities and have little authority to do so. They are
                particularly frustrated when attending nephrologists do not engage in quality
                improvement efforts or address situations where medical directors thought patients
                were receiving inadequate care. These are serious limitations addressed only
                indirectly in the existing Medicare Conditions.46

          <	
          <     Facilities are not required to report electronically on standardized performance
                measures determined by HCFA. The limited capacity of some facilities to provide
                electronic submission of data has inhibited Network initiatives to collect facility-
                specific data. Under HCFA’s plans for collecting and using clinical performance
                data in the years ahead, it will be essential for facilities to meet standard
                specifications for electronic reporting.

          <	
          <     Facilities are not required to conduct their own quality improvement program.
                The Medicare Conditions only require facilities to monitor specific events and do not
                explicitly require facilities to continually improve care and/or to identify trends in
                care. Without such a mandate, and in facility settings where the pressures of
                providing adequate day-to-day care are considerable, it is often difficult to devote
                much attention to deliberative efforts that would identify improvement needs, to
                collect and analyze data concerning those needs, and then to determine and monitor
                changes in facility practices.

          <
          <	    Facilities are not required to monitor patient satisfaction. Patient satisfaction is an
                important, often overlooked dimension of quality. The Medicare Conditions do not
                require facilities to routinely monitor patient satisfaction. Some Networks have
                taken the initiative to develop and encourage the use of patient satisfaction surveys.
                Similarly some dialysis facilities and corporations have developed patient satisfaction
                surveys.

          State survey agencies have difficultly maintaining the expertise of surveyors.
          Facility, Network, and State agency staff view the Medicare surveys as an important part
          of external oversight. However, they raise concerns about the skills of the surveyors.
          They stressed that dialysis surveys are highly technical, requiring knowledge not only of
          water treatment processes but also of the complexities of dialysis treatment. As dialysis
          surveys become less frequent, surveyors are increasingly hard pressed to maintain their
          familiarity with dialysis facilities, let alone keep pace with technological advances.

          HCFA does require all surveyors to attend a basic training course specific to dialysis
          facilities before they can conduct dialysis surveys.47 HCFA also provides advanced
          training courses regularly.48 However, lessons learned in these courses may be forgotten
          if surveyors do not have the opportunity to use these skills regularly.


External Review: A Call for Greater Accountability   19                     OEI-01-99-00050
Medical injuries are not systematically monitored.

          Medical injuries are attributable to the care provided to the patient, not to the patient’s
          underlying conditions. Such injuries can happen even in the best of health care facilities.49
          Some dialysis corporations may have internal systems for addressing medical injuries, but,
          if they do, little is known about their scope and effectiveness. Some States have adverse
          event reporting requirements, but they appear to be of little overall consequence to
          dialysis facilities.50 Facilities that are associated with hospitals accredited by the Joint
          Commission for Accreditation of Healthcare Organizations are subject to the
          Commission’s “Sentinel Event” program for reporting adverse events, but as we have
          shown in a prior report, this system is still in an early stage of development.51 HCFA
          lacks any requirement that facilities establish their own, internal systems for identifying
          and analyzing adverse events or that they report such events to Networks or States.52

HCFA Does Little to Hold Networks and State Survey Agencies
Accountable for Their Effectiveness.

Minimal assessment of Networks’ performance.

          Project officers in four regional offices are HCFA’s main operational contacts with the
          Networks. These project officers receive considerable information from the Networks.
          They get regular updates on the quality improvement projects that Networks are
          mandated to conduct. They conduct periodic site visits, receive quarterly reports
          providing detailed updates on the Networks’ activities, and receive annual reports with a
          comprehensive summary of the year’s activities.

          However, this regular flow of information results in little substantive evaluation and
          feedback on the effectiveness of the Networks. How effective are the Networks in using
          standardized performance data to foster overall improvement across facilities and, in
          particular, in poorly performing facilities? How successful are they in operating a
          complaint system that is accessible, fair, and responsive to complainants? We found few
          signs of probing, independent assessments of these and other such basic questions. Nor
          does HCFA call for the Networks themselves to address such evaluative questions in
          more than a passing way.

          HCFA’s most formal mechanism for evaluating the Networks is the year-end evaluation
          questionnaire that the project officers complete and send to the central office. This is a
          three-page form that poses 13 performance-related questions, and in each case, calls for
          the project officer to indicate “satisfactory,” “unsatisfactory,” or “comments attached.”53
          In our review of the completed questionnaires for all 18 Networks in 1998, we found that
          in the total inventory of 234 questions, all but 2 were checked satisfactory.54




External Review: A Call for Greater Accountability   20                    OEI-01-99-00050
          Further HCFA does not hold the Networks accountable for how the facilities in their
          regions fare on HCFA’s Clinical Performance Measures Project. There are notable
          differences from Network to Network. For example, across all 18 Network regions, the
          percentage of hemodialysis patients with a Kt/V $1.2 ranged from 74 percent to 87
          percent for the last quarter of 1998. Similarly, the percentage of hemodialysis patients
          with hemoglobin levels >10 gm/dL ranged from 72 to 85 percent among the Networks.55
          In this context, it is important to note that HCFA gives the Networks little discretion to
          undertake a range of quality improvement activities targeted to the distinctive needs of
          their region. Instead, HCFA requires them to conduct formal quality improvement
          projects that can take years to complete and that must follow a prescribed format.

Minimal assessment of State survey agencies’ performance.

          HCFA’s assessment of the performance of the State survey agencies is even less exacting
          than that for the Networks. In the past, HCFA would conduct validation surveys,
          through which HCFA staff would review dialysis facilities shortly after a State
          certification survey.56 Recently, HCFA eliminated these in favor of periodically observing
          State surveyors’ performance and offering advice and assistance as applicable. While the
          latter approach has potential and may well involve some useful informal assessment and
          feedback to the State surveyors, we found no evidence of substantive evaluation and
          feedback to the States on such key matters as the effectiveness of the surveys, the skill of
          the surveyors, and the adequacy of collaboration with the Networks.

          HCFA relies on State agencies to assess their own performance and, by working with the
          HCFA regional offices, to develop and implement their own quality improvement plans.
          This process is called the State Agency Quality Improvement Program (SAQIP). The
          program addresses State survey activities generally, and fails to specifically assess dialysis
          surveys. The summary report that HCFA issues on SAQIP activities provides few
          meaningful insights into the challenges or successes of any one State.57

Minimal public disclosure.

          HCFA offers no readily accessible public information (e.g, on the Internet) on any
          Network or State actions taken by either Networks or States to protect the public. All
          Networks have websites, but they vary significantly in the amount and type of
          information that they post. None publishes any information on complaints received and
          investigated at a particular facility or on any corrective actions pending against a
          particular facility. Similarly, little information is readily available on the performance of
          States. Survey results are available only upon request and are difficult to interpret.
          Results are not routinely posted on the Internet or in facilities.




External Review: A Call for Greater Accountability   21                     OEI-01-99-00050
                            RECOMMENDATIONS

          The 230,000 patients receiving life-sustaining dialysis treatments rely upon the
          professionalism of their caregivers and the internal monitoring efforts of their facilities to
          provide high quality care and minimize risks. Yet, documented variations in the quality
          of dialysis care and reported incidents of poor care reinforce the need for an external
          quality review system to serve as a safety valve for patients.

          As we have indicated, the quality oversight system carried out on HCFA’s behalf by the
          Networks and State agencies has major shortcomings. It is imbalanced, in that it stresses
          improving overall quality more than enforcing minimum requirements that protect
          patients from harm. It is fragmented, in that Networks and State agencies rarely
          coordinate their efforts to foster patient protections. And, fundamentally, it lacks
          sufficient accountability on the part of the Networks, the State agencies, and, most of all,
          the facilities themselves.

          HCFA should exert leadership to address these shortcomings. In this section, we present
          two guiding principles and two recommendations that address how HCFA can provide
          this leadership. In doing so, we stress that while HCFA has authority and leverage, it
          must approach the Networks and State agencies as partners who contribute to and share
          a commitment to high-quality dialysis care. We also stress that external oversight must
          be conducted in ways that minimize the regulatory burden on dialysis facilities and seek
          to complement the facilities’ own internal quality review efforts. In some cases HCFA
          has already undertaken initiatives that move in the directions we call for.

          We present our recommendations in the context of the current oversight system in which
          HCFA relies upon the Networks and State survey agencies. We believe that this system
          has the potential to provide effective oversight. Yet, we recognize and suggest that
          HCFA take into account that a system for private accreditation of dialysis facilities, if
          held properly accountable, can be a valuable complement — particularly because it can
          readily adapt state-of-the art standards that respond to changes in dialysis delivery and
          evaluation methodology.58

          In making our recommendations, we must stress that our focus is on the external quality
          oversight of dialysis facilities and not on the Medicare payment policies concerning
          dialysis treatment. We note that because in the course of our interviews and in the
          professional literature many parties have expressed concern that the fragmented nature of
          the payment system and the current rate of reimbursement for dialysis treatment are
          themselves factors that may adversely effect the quality of dialysis care. We offer no such
          evidence in this report, but recognize that they are factors warranting attention, as has
          been pointed out by the Institute of Medicine and the Medicare Payment Advisory
          Commission.59


External Review: A Call for Greater Accountability   22                     OEI-01-99-00050
          Finally, we recognize that our findings and recommendations suggest a sense of urgency
          in improving the quality oversight of dialysis facilities. At the same time, we recognize
          that in an environment of limited resources and competing priorities, all the actions we
          call for cannot readily be taken. We present them as a blueprint for actions that can be
          carried out over a reasonable period of time.

GUIDING PRINCIPLE 1. HCFA should steer external oversight of the
quality of dialysis facilities so that it reflects a balance between
collegial and regulatory modes of oversight.

          In our work on external quality oversight of various kinds of health care providers, we
          have found it helpful to consider oversight efforts in terms of a continuum, characterized
          by a collegial approach on one side and a regulatory approach on the other. External
          reviewers in the collegial mode focus on educating and improving performance; those in a
          regulatory mode focus on investigating and enforcing of minimum requirements. In the
          continuum below, we present the major characteristics we associate with each mode.


                                       Figure 2. A Continuum of External Review

             Collegial Mode                                              Regulatory Mode
             (Educate and Elevate)                                       (Investigate and Enforce)



             Cooperative                                                 Challenging

             Flexible                                                    Rigid

             Foster Process Improvements                                 Enforce Minimums

             Guidance                                                    Directive

             Trusting                                                    Skeptical

             Professional Accountability                                 Public Accountability

             Confidentiality                                             Public Disclosure

             Systems Focus                                               Outlier Focus

             Improve Patient Outcomes                                    Minimize Preventable Harm





          Both approaches have value and ardent supporters. But, as the National Roundtable on
          Health Care Quality and others have found, neither approach is backed with sufficient
          data to warrant concentrating on one at the expense of the other.60 A credible system of
          external review must, therefore, reflect a reasonable balance between the two.

          In the current system of oversight, the State agencies clearly operate on the regulatory
          side of the continuum. They are public bodies that as HCFA’s agents perform on-site
          surveys that can serve as the basis for regulatory actions. But as we have shown, the


External Review: A Call for Greater Accountability       23                       OEI-01-99-00050
          frequency of those surveys has declined markedly, resulting in only 17 percent of all
          dialysis facilities being surveyed in 1998.

          In contrast to the State agencies, the Networks function on the collegial side of the
          continuum. They are governed primarily by physicians who are associated with
          individual facilities, who have expertise on dialysis treatments that State agency
          representatives lack, and who stress education and improvement objectives. As we have
          shown, their collegial orientation, which can often be effective, is apparent in how they
          use standardized performance data and respond to complaints. Some Networks do
          reflect a greater readiness to take a more challenging approach to facilities, but their
          limited authorities, resources, and mandate from HCFA preclude them from moving very
          far in this direction. In working with the Networks, HCFA in recent years has reinforced
          their collegial role, viewing them increasingly as functioning in a penalty free
          environment, while the State agencies serve as the regulators.

          The Networks have much to offer in using collegial approaches to foster improvements in
          the quality of care. Given their greater expertise on dialysis matters and their closer
          relationships with dialysis facilities, it would seem to be desirable for HCFA to look to
          them to tilt toward the collegial end of the continuum. But it is not feasible for a Federal
          oversight entity not to have some clear requirements for enforcing minimum standards of
          performance. HCFA, we believe, should exert a steering role that, over time, achieves a
          reasonable balance between the two approaches to oversight. In our recommendations,
          we offer specific suggestions on how that can be done.

GUIDING PRINCIPLE 2. HCFA should steer the external oversight of
dialysis facilities so that Networks and State survey agencies
collaborate more effectively.

          As we have shown, the Networks and State agencies operate in two separate realms and
          rarely interact. Given the crucial and often interrelated roles that both play as HCFA’s
          agents, it is vital that HCFA provide direction that facilitates better collaboration.
          Through a clear delineation of their mutual roles, specific operational mandates, support
          for demonstration efforts, sharing of information about promising approaches, and
          perhaps other ways, HCFA can steer the efforts of the Networks and State agencies in
          ways that foster more frequent and effective collaboration. The joint efforts taking place
          in Texas illustrate some of the potential that exists. (See our companion report, External
          Quality Review of Dialysis Facilities: Two Promising Approaches.)




External Review: A Call for Greater Accountability   24                   OEI-01-99-00050
RECOMMENDATION 1. HCFA should hold individual dialysis facilities
more fully accountable for the quality of care.

1a. HCFA should revise the Medicare Conditions for Coverage for dialysis
facilities so that they serve as a more effective foundation for accountability.

          The current Conditions are close to a quarter century old.61 It is time for HCFA to
          update and reinforce them as a tool for holding dialysis facilities accountable for the
          quality of care they provide. A number of years ago, HCFA proposed a set of revisions
          that reflected some progress in this direction. But that effort stalled. We recommend
          that HCFA revise the current Conditions so that, at a minimum, they:

          <	
          <     Strengthen the accountability of the dialysis facility governing body. The
                governing body should be held clearly accountable for the overall quality outcomes
                provided by the facility.62 Moreover, since most dialysis facilities are now part of
                national or multi-national corporations, the governing bodies should ensure that
                authoritative representatives are readily available to respond to queries and/or visits
                by State survey agencies or Networks.63

          <	
          <     Reinforce the accountability of the dialysis facility medical director for patient
                care. While the governing body of the facility is the basic source of accountability,
                the medical director should clearly be empowered as the on-site agent most directly
                responsible for the quality of care being delivered. In this capacity, the medical
                director should clearly have the authority to develop and monitor quality
                improvement efforts, to serve as an educational resource for medical and nursing
                staff, and, where individual care staff are not performing adequately, to bring that to
                the attention of the facility’s designated governing authority.64

          <
          <	    Require facilities to report electronically on standardized performance measures
                determined by HCFA. HCFA must make clear a facility’s obligation to report
                facility-specific patient outcome data to a designated entity or entities on a national
                set of performance measures.65 As HCFA continues to focus more on performance
                measures, facilities must submit their data electronically in order to make this task
                feasible and allow for timely analysis and dissemination of the data.

          <
          <	    Require dialysis facilities to conduct their own quality improvement program. An
                internal quality improvement program serves as a valuable complement to network-
                wide or national improvement efforts. It is a mechanism for addressing the
                distinctive needs of a facility and of fostering a culture of continuous improvement.66




External Review: A Call for Greater Accountability   25                     OEI-01-99-00050
          <	
          <     Require dialysis facilities to establish internal systems for identifying and
                analyzing the causes of medical injuries and medical errors. Injuries associated
                with patient care will happen from time to time and a facility must be alert to
                spotting them and learning from them. Such internal systems help protect patients
                from harm.

          <	
          <     Require dialysis facilities to monitor patient satisfaction. Over the past 25 years,
                patients have come to play an increasingly important role in their own health care,
                and techniques of assessing patient satisfaction have become increasingly
                sophisticated. Given that, it is reasonable to expect dialysis facilities to integrate
                patient satisfaction as an element in their own quality improvement efforts.
                Moreover, an ongoing mechanism for monitoring patient satisfaction can serve can
                serve as a way of surfacing patient concerns that complaint systems do not.67

1b. HCFA should use facility-specific performance measures to encourage
facilities to improve the quality of care and to help ensure facilities meet
minimum standards.

          We recommend that HCFA move in the direction of collecting and disseminating
          facility-specific performance data and of using such data in a balanced fashion — for
          both improvement and enforcement purposes. HCFA has made progress in developing
          and using performance measures that provide the basis for assessing the quality of dialysis
          care. But, thus far, HCFA has focused on using performance measures almost
          completely for improvement purposes by focusing on national and regional trends. It is
          time, we believe, to build on this progress by using performance measures as a key
          mechanism for holding individual facilities more accountable for the care they provide.

          Identify a core set of performance indicators to collect regularly on all patients
          from facilities. HCFA, with input from the professional community and from patients
          and patient advocates, should determine a core set of clinical indicators that will be used
          to help facilities, Networks, State survey agencies, and the public assess the quality of
          care at a facility while ensuring patient confidentiality. Once established, this core data
          set should be continually examined and revised so that it includes the most pertinent,
          reliable measures. HCFA has already implemented core data sets for other providers,
          such as nursing homes and home health agencies, which serve vulnerable patient
          populations. It is time to do the same for dialysis facilities. In the interest of accuracy
          and timeliness, HCFA should develop a system that collects the performance data on a
          regular basis directly from patient’s medical records. At a minimum HCFA should collect
          these measures annually and work towards quarterly reporting.

          HCFA has already begun to take significant steps toward the goal of facility-specific data.
          Namely, HCFA has invested in an extensive computer infrastructure for electronically
          linking facilities, Networks, and HCFA together. This system will make a data collection
          of this size more feasible.68 HCFA has also created the National ESRD Core Data Set
          Initiative to begin to develop a core data set for dialysis facilities.

External Review: A Call for Greater Accountability   26                     OEI-01-99-00050
          Already, HCFA has funded the creation of three facility-specific reports. One facility-
          specific report is to be used by Networks and the facilities for quality improvement
          purposes.69 HCFA has also developed two other facility-specific reports that will contain
          performance data, one for State survey agencies and one for consumers.70 These three
          reports rely largely on HCFA billing data for clinical indicators such as urea reduction
          ratios, hematocrit levels, and patient mortality.

          Disseminate comparative facility-specific reports to facilities, Networks, State
          survey agencies, and the public containing all the performance indicators in the
          core set. Once HCFA has a data collection system in place, it should generate quarterly,
          facility-specific reports that compare facilities to their own past performance and to their
          peers at the State, Network, and national levels for each of the performance indicators in
          the core set. Where possible, HCFA should account for case mix differences among
          facilities. At a minimum, this should include patient demographic information.
          Eventually, HCFA should generate similar reports at the physician level.

          The data in these reports should be
                                                      Figure 3. The core set of facility-specific
          made readily available to all parties:
                                                      performance measures should be available to:
          the facilities, the Networks, the State
          agencies, and, through Internet                 <	
                                                          < facilities to support internal quality
          websites (and perhaps even postings                improvement activities,
          in facilities), the general public. Such
          an effort will require HCFA to ensure           < Networks to support regional quality
                                                          <	
                                                             improvement activities and to identify outliers
          patient confidentiality and may call
                                                             for further review,
          for statutory changes. As we
          previously mentioned, HCFA already              < State survey agencies to help guide and
                                                          <	
          has an effort underway to develop a                inform the survey process, and
          core data set, the National ESRD
          Core Data Set Initiative. However,              < the public to foster public accountability.
          HCFA has not yet determined
          specifically how this data set will be
          used by all the various parties.

          We also recognize the sensitivities associated with such widespread release of this
          information. The data, many note, can be misleading. For instance, some patients may
          not choose to have optimum dialysis treatments because they wish to spend less time on
          dialysis. To help foster the responsible use of the performance data, we suggest that all
          quarterly performance reports include a prominent statement up front noting the
          limitations of the data and emphasizing that performance data are indicators, not absolute
          markers of quality.

          At the core, the performance data can help reviewers ask better, more targeted questions
          about quality. If a facility’s performance on a measure or a cluster of measures has been
          declining over time or is consistently less than that of other facilities with a similar patient
          mix, then it is reasonable to ask why and to do so in a public forum. The answers

External Review: A Call for Greater Accountability   27                        OEI-01-99-00050
          might well indicate that such a facility is actually a top-quality one, with sound reasons
          for its statistical ranking. Or, they could indicate that the facility does have problems
          warranting attention.

          <	
          <     Facilities. Perhaps the most compelling reason for distributing facility-specific
                standardized performance data is to spur internal improvements by the facilities
                themselves. Such data can help leadership in the facilities gain a better sense of how
                the facility is performing and can provide the leadership with valuable leverage for
                initiating change. This would appear particularly true in competitive markets.

          <	
          <     Networks. Once equipped with facility-specific performance data, Networks will
                have a valuable additional tool to guide their external oversight of facilities. HCFA
                should require that Networks use these data for both improvement and enforcement
                purposes. It should look to the Networks to take the lead in identifying best
                practices, conducting educational and technical assistance efforts, and other
                initiatives that foster continuous improvement in the quality of care provided at
                dialysis facilities. At the same time, HCFA should look to the Networks to work
                with outlier facilities that have continued poor performance that cannot be explained
                by extenuating circumstances. HCFA should also make clear that this may well call
                for imposing corrective actions, or perhaps, referrals to the State survey agencies or
                HCFA itself.

          <
          <	    State survey agencies. The professional renal community is concerned about the
                potential use of performance data to trigger State surveys. Their concern centers
                around the credibility of such information in identifying problem facilities and in the
                use of performance data for regulatory as opposed to improvement purposes. We
                recognize the danger of drawing upon performance data too literally as an alarm-call
                for a regulatory-focused State survey. Yet, we see no basis for not regularly sharing
                such data with the State surveyors. Together with other information that the State
                may have on a facility, it can help guide the surveyors when they do survey a facility
                or, in cases when the information seems compelling enough, influence when they
                decide to conduct a survey.71

          <
          <	    The public. With the rapid advances taking place in information and medical
                technology, patients and consumers, in general, are becoming increasingly active
                partners in their own health care.72 Even though many dialysis patients may not be
                inclined to draw on facility performance data, many of them and many family
                members, surely would be interested in such data. Moreover, the influence of public
                release would likely contribute to how seriously facilities respond to the data. HCFA
                has moved in this direction in providing data on the performance of nursing homes
                and managed care organizations.73 It should do the same for dialysis facilities.
                HCFA’s posture toward performance data should be that if they are worth
                collecting, they are worth disclosing.




External Review: A Call for Greater Accountability   28                    OEI-01-99-00050
1c. HCFA should strengthen the complaint system for dialysis patients and
staff.

          Work with the Networks and the State survey agencies to establish an effective
          complaint system. On the basis of this inquiry and our prior inquiries of external quality
          oversight of health care providers, we have developed a template for an effective
          complaint system. Below, we identify and explain the eight key elements of that
          template. We present it here as a frame of reference for the kind of system that HCFA
          should seek to establish in the dialysis field.

                                  Table 2. Template for an Effective Complaint System


               Element                                                     Description

 Accessibility                           Makes efforts to inform potential users of the system and is easy to use.

 Objectivity                             Respects the rights of all parties involved. Conducts unbiased investigations.

 Investigative Capacity                  Has access to clinical expertise and has sufficient resources and authority to
                                         thoroughly review and evaluate complaints, including the ability to go on-site
                                         whenever necessary.

 Timeliness                              Complaint investigations conclude within a reasonable time frame.

 Responsiveness to                       Complainants receive substantive information about the process and any
 Complainants                            resulting actions.

 Enforcement Authority and               Has the authority to hold facilities and individuals accountable when
 Follow-up                               complaints are substantiated. Follows up with appropriate corrective actions.

 Improvement Orientation                 Uses complaints to help identify opportunities for improvement and
                                         prevention.

 Public Accountability                   Facility-specific complaint information is available to the public so that they
                                         can be aware of any disciplinary actions or any past problems at a particular
                                         facility.


          Conduct pilot projects to test ways in which the Networks and the State survey
          agencies could work together to create an integrated complaint system. Given the
          fragmented nature of the current complaint systems, we recognize that even at best it is
          likely to take some time to develop a system that as a whole reflects the characteristics of
          the above template. Thus, we urge HCFA first to convene representatives from the
          Networks and State survey agencies to identify ways in which these two entities can
          work together most constructively, drawing on their respective strengths. Secondly, we
          urge HCFA to conduct pilot efforts through which Networks and State agencies
          implement a unified complaint system based on our template. The results of such pilots
          could help guide the efforts of other Networks and States and, over time, could provide
          the basis for explicit expectations incorporated in HCFA contracts with both the
          Networks and States.


External Review: A Call for Greater Accountability           29                          OEI-01-99-00050
          Develop a common instrument that facilities and others could use to assess patient
          satisfaction. For many patients, an anonymous response to a patient satisfaction survey
          may serve as a safer vehicle for expressing concern than a formal complaint to a facility,
          Network, or State agency. We have already called for HCFA to revise the Medicare
          Conditions for Coverage so that facilities are required to conduct their own assessments
          of patient satisfaction. Given the importance of this kind of effort, we also call upon
          HCFA to exert national leadership to facilitate the development of a common instrument
          that dialysis facilities could use to assess patient satisfaction. This could draw upon the
          instruments that some dialysis corporations have already developed and use for their own
          internal monitoring efforts. HCFA could make such an instrument available to facilities
          for their own use. HCFA could also test such an instrument on a national, Network, or
          even facility-specific basis. Recently, the Medicare Payment Advisory Commission made
          a similar recommendation.74

1d. HCFA should enhance the role of Medicare on-site certification surveys.

          Determine an appropriate minimum cycle for conducting Medicare certification
          surveys of dialysis facilities. Routine on-site surveys of dialysis facilities are important
          to help ensure that facilities comply with minimum standards outlined in the Medicare
          Conditions for Coverage.75 But, as we have shown, the elapsed time between the State
          surveys has been growing, with the result that close to half of all facilities have not been
          surveyed within a 3-year period. As a result, surveyors have difficulty maintaining their
          skills.76 By contrast, nursing homes and home health agencies, which also serve
          vulnerable populations, are surveyed according to a congressionally mandated cycle. By
          determining an appropriate minimum cycle for dialysis facilities, HCFA will increase the
          attention that dialysis quality issues receive and will enable surveyors to better maintain
          their competencies.

          Conduct pilot tests to determine the potential of Network and State joint initial
          certification visits of dialysis facilities. All new facilities must undergo an initial
          certification visit by the State survey agency. We suggest that this initial review presents
          a major opportunity for State agencies and Networks to bring together their respective
          strengths and ensure that the facilities have in place the necessary elements to provide
          top-quality dialysis care. We recognize that at the time of initial reviews few patients are
          receiving treatment at the facility and therefore major problems rarely are uncovered. We
          think that initial reviews provide an opportunity for the Networks and States to work
          together cooperatively without the pressures associated with a for-cause investigation.
          Such a joint effort would get the two entities more accustomed to working together and
          could therefore have residual benefits for their other oversight functions.

1e. HCFA should facilitate the development of publicly accountable means for
identifying serious medical injuries and analyzing their causes.

          We have already recommended that HCFA require facilities to develop their own,
          internal mechanisms for addressing medical injuries and medical errors. It is essential,

External Review: A Call for Greater Accountability   30                    OEI-01-99-00050
          we believe, for this internal safeguard to be complemented with an external, publicly
          accountable means for addressing adverse events resulting in death or serious harm while
          ensuring patient confidentiality. The Institute of Medicine recently called for a mandatory
          national system for reporting of such adverse events in hospitals and other health care
          facilities.77 Given that dialysis treatments are paid for primarily by Medicare funds, and
          that HCFA has the major responsibility for the external quality oversight of the facilities,
          dialysis facilities are an ideal candidate for testing this kind of reporting system. The
          system should provide for the analysis of adverse events and for any necessary corrective
          actions at the facilities involved. It should also involve the maintenance and regular
          analysis of a data base of such events in order to identify injury-prevention strategies that
          could be shared across facilities.

          In particular, we suggest that HCFA work with the Networks to establish pilot efforts to
          conduct such monitoring. Those pilots should test ways to identify major adverse events
          occurring in dialysis facilities that trigger subsequent analyses that shed light on (1) the
          causes of the events in those facilities and (2) the broader prevention strategies that can
          be taken across facilities. In any such pilot effort, HCFA should require that collaborative
          arrangements be made with the State survey agencies.78

RECOMMENDATION 2. HCFA should hold the Networks and State
survey agencies more fully accountable for their performance in
overseeing the quality of care provided by dialysis facilities.
          The Networks are private, federally funded contractors accountable to HCFA for their
          performance. The State survey agencies are public bodies accountable to their States’
          governors and legislatures, but also to HCFA for the services they are providing on
          behalf of Medicare beneficiaries. If HCFA is to hold the facilities more accountable as
          we called for in the prior recommendations and if it is to continue to rely upon the
          Networks and State agencies as its main agents toward that end, then it must also find
          ways to hold those agents more accountable. Below, we set forth specific actions HCFA
          can take.

2a. HCFA should issue policy guidance delineating the distinctive roles of the
Networks and State survey agencies in quality oversight and providing direction
on how they should collaborate.

          HCFA should clearly state that the Networks serve as its primary agents in fostering
          continuous quality improvement in the care provided to dialysis patients, but yet must
          also support enforcement efforts. Similarly, it would be helpful for HCFA to clearly state
          that the State survey agencies serve as HCFA’s primary agents in enforcing compliance
          with the Medicare Conditions for Coverage, but also must support improvement
          opportunities. With the two entities having a mutual appreciation of these distinctions,
          the stage is more effectively set for effective joint efforts — for a more effective
          oversight process that marries the clinical expertise of the Networks with the


External Review: A Call for Greater Accountability   31                    OEI-01-99-00050
          regulatory powers of the State agencies. HCFA can convey this in two ways. For
          Networks, their contracts, particularly in the section explaining HCFA’s Health Care
          Quality Improvement Program, would seem to be a particularly appropriate vehicle. For
          the State agencies, the annual budget call letter would appear to be the most appropriate
          forum.

          We recognize that there are significant barriers to achieving collaboration between the
          Networks and the States. As we have already mentioned, Networks and States take
          markedly different approaches to oversight. Also limited resources make it difficult for
          the States and the Networks to have face-to-face meetings. This may be even more
          difficult for the Networks because most Networks cover multi-state regions. Finally,
          HCFA needs to address the issue of confidentiality and if necessary request statutory
          changes so that the Networks and the States can disclose information to one another and
          to the public.

          HCFA should also target, for both the Networks and State agencies, particular spheres of
          activity in which collaborative arrangements are not only desirable, but also necessary.
          HCFA should go beyond the general statements on coordination, as now appear in the
          Network contracts, and offer firm direction. HCFA should then hold both parties
          accountable for adhering to that direction. At a minimum, the Networks and State
          agencies should be held accountable for collaboration in the following four areas:

          <	
          <     Sharing facility-specific data. Such data are important vehicles for facility self-
                improvement. But they also can be useful (if not necessarily determinative) in
                informing State on-site surveys.

          <
          <	    Sharing State survey results. Similarly, results of the State surveys can be helpful
                to the Networks as they carry out their quality improvement efforts and as they
                address specific complaints involving individual facilities.

          <	
          <     Working together in addressing complaints. To help protect patients, the
                Networks, and State agencies should agree on when to make referrals to one another
                involving complaints. The pilot efforts we called for earlier can be helpful here.

          <	
          <     Consulting one another on areas of expertise. States and Networks both need to
                be valued for their perspective and expertise. Networks could help surveyors target
                facilities for surveys and help monitor and correct deficiencies involving the quality
                of care. Similarly, States could help Networks enforce minimums and identify
                regional trends. To make sure this occurs, HCFA should establish guidelines for
                when Networks and States should solicit the advice or assistance of the other.

          One way in which HCFA can facilitate collaboration between the Networks and States is
          to convene forums in which HCFA, Network, and State officials come together to
          discuss the approaches to collaboration, the barriers that inhibit them, and actions that
          might be taken to overcome such barriers. The forums could also provide a good venue

External Review: A Call for Greater Accountability   32                     OEI-01-99-00050
          to showcase promising approaches to collaboration that some Networks and States have
          already undertaken.

2b. HCFA should foster greater accountability of the Networks.

          Develop, with input from the Networks, a system for performance-based
          evaluations of the Networks. This system would have to be established from the
          ground up since no such system is in place now. The current evaluations of Network are
          rudimentary, more of an accounting of activities than an evaluation of performance. We
          call for a reinvention of this entire approach in a way that minimizes routine annual
          reporting burdens and maximizes opportunities for substantive assessment and
          continuous improvement.

          We suggest that, at least at the start, this reinventing effort focus on two central
          questions:

          <	
          <     How effectively are Networks drawing on standardized performance data to
                improve the overall clinical performance of facilities in their region and to ensure
                that poor performers meet minimum standards of care? Given the development of
                increasingly sophisticated clinical performance measures for facilities, it is reasonable
                to use them as key references in assessing the Networks’ own performance. HCFA
                has moved in this direction with the Medicare Peer Review Program. It would
                appear to be timely to do the same for Networks.

          <
          <	    How effectively are Networks using a complaint system as a quality-of-care
                safeguard? The template we developed offers eight specific elements that can be
                examined to help answer this question.

          As HCFA puts in place a performance-based evaluation system, it should give the
          Networks increased flexibility in how they use their resources. Such flexibility
          should enable Networks to develop improvement projects, intervention strategies,
          educational efforts, and other initiatives that are most pertinent to their region.
          The aim should be to find reasonable ways of holding Networks more
          accountable for results that make a difference in patient care while giving them
          added discretion in tailoring their efforts to the needs and characteristics of their
          regions. Providing Networks with the added flexibility we call for need not
          preclude developing a nationwide quality improvement project that all Networks
          participate in, if the rationale for that effort were sufficiently compelling.

          Increase public disclosure of information on the Networks. As HCFA proceeds in
          developing an evaluation system as we call for above, it should also develop a core set of
          information on Network activities and performance that would be readily available to the
          public, preferably on the Internet — either on HCFA’s own web site or on the Networks’
          web sites or posted in facilities. Such disclosure can be particularly important in helping
          the media, advocates, patients, and other interested parties understand how Networks use

External Review: A Call for Greater Accountability   33                     OEI-01-99-00050
          performance data to improve dialysis care and of how they handle complaints. In the
          process, it reinforces the point that publicly-funded Networks are accountable to the
          general public as well as to HCFA.

2c. HCFA should foster greater accountability of the State survey agencies.

          Establish a means to periodically assess the State surveys. One way HCFA could
          better assess the State surveyors is to observe more State surveys. This provides HCFA
          with the opportunity to provide direct feedback to surveyors and can be more instructive
          and timely than validation surveys. However, because of the technical nature of these
          surveys, it may be difficult for HCFA personnel to develop and maintain the expertise to
          constructively assess State surveys. In this regard, HCFA should consider developing a
          small group of contracted, experienced dialysis surveyors that it could draw upon to
          periodically observe State surveys as well as to investigate complaints as needed. For
          years, HCFA has relied upon a panel of contracted psychiatric surveyors to survey
          psychiatric hospitals. A similar mechanism could be used for the oversight of dialysis
          facilities.

          Increase public disclosure of information on the State survey agencies. Disclosing
          information about the activities and performance of the State survey agencies is just as
          important as for the Networks. Particularly relevant would be information on the number
          of surveys conducted, the specific facilities surveyed, the type of deficiencies found, and
          the corrective actions taken. As with the Networks, HCFA could post this and other
          pertinent information on its own website or call for the States to post it on their own or
          even post it within the facilities as is the case for nursing homes.79




External Review: A Call for Greater Accountability   34                  OEI-01-99-00050
       COMMENTS ON THE DRAFT REPORT

          We received comments on the two draft reports from HCFA and three additional outside
          parties: the Forum of the End Stage Renal Disease Networks, the Association of Health
          Facility Survey Agencies, and the American Association of Kidney Patients. Based on
          the comments we changed one recommendation and made several technical changes to
          the report. We include the complete text of the comments in appendix C. Below we
          summarize the comments and, in italics, we offer our responses.

HCFA Comments

          HCFA generally supported our findings and recommendations and responded by
          submitting a detailed action plan. The action plan outlines HCFA’s commitment to
          collect and disclose facility-specific performance data, increase on-site surveys, revise the
          Conditions for Coverage, strengthen the complaint process, and explore ways to
          implement a system to monitor adverse events. HCFA indicated that it intends to
          establish minimum performance standards for some clinical outcomes. HCFA did take
          issue with our recommendation to require joint Network-State initial certification surveys
          of facilities. HCFA also expressed concerns with assessing patient satisfaction, given a
          likely low response rate.

          We find HCFA’s detailed action plan to be a positive step toward strengthening the
          system of oversight for dialysis facilities. We caution HCFA not to include specific
          performance measures or minimum thresholds within the Conditions for Coverage. This
          will prevent timely updates as scientific knowledge advances. We believe that measures
          with minimum thresholds would be more aptly laid out in provider agreements with
          facilities. With regards to HCFA’s concern about joint Network-State surveys, we
          revised the recommendation to state that HCFA should first conduct pilot tests to
          determine the effectiveness of this approach rather than requiring it. We recognize the
          shortcomings of such an approach, but we maintain that initial certification surveys
          offer a less threatening environment compared to a for-cause survey. Thus, Networks
          and States may find it easier to work together. We also think initial certification surveys
          are a good opportunity for the facility to meet both the Networks and the States before a
          problem arises. We encourage HCFA to move forward with assessing patient
          satisfaction even given the likelihood of low response rate. Finally, we want to further
          stress that HCFA release any and all facility-specific data that it collects to the public.

Forum of the End Stage Renal Disease Networks Comments

          The Forum agreed with the majority of our findings but expressed concerns over several
          of our recommendations. The Network took issue with our finding that Networks rarely
          target poor performing facilities. It emphasized that Networks and States approach such
          facilities in different ways and both approaches are valuable. It cautioned against

External Review: A Call for Greater Accountability   35                    OEI-01-99-00050
          specifying outcome targets in the Conditions for Coverage. The Forum raised concerns
          that efforts to monitor adverse events, patient satisfaction, and the public release of
          performance data may undermine the collegial role of the Networks. It suggested that
          initial certification surveys may not provide the best opportunity for joint Network and
          State surveys and suggested instead joint surveys of poor performers. It also took issue
          with our recommendation for developing a performance-based evaluation mechanism for
          the Network without a similar requirement for the States. Finally, it pointed out the
          Networks’ role in monitoring transplant centers was not addressed.

          We recognize that some Networks are targeting poor performing facilities, but our
          evidence shows that many Networks are not and that many do not have reliable facility-
          specific data to identify such facilities. We want to reiterate that the Networks and
          States both have responsibilities to ensure minimums and to improve the overall
          performance. It is not feasible at this time for the Networks to work exclusively in a
          non-punitive manner. We believe that the Texas example presented in our second report
          demonstrates that Networks and States can work in both realms, each with their
          respective emphases. We agree that joint Network-State surveys of poor performers may
          be valuable and may be an option that HCFA would want to test along with joint initial
          certification surveys. Given the emphasis of the Networks on quality improvement and
          the States’ emphasis on enforcing minimums, we think that it is feasible to hold the
          Networks accountable for improving the performance of their facilities. We call for
          States to be held accountable for their role in enforcing minimums. Finally, we agree
          that the oversight of renal transplant centers is important, but that issue was beyond the
          scope of this inquiry.

Association of Health Facility Survey Agencies Comments

          The Association of Health Facility Survey Agencies (AHFSA) agreed with the majority
          of our findings and recommendations, but indicated that we failed to provide any
          discussion of funding issues. Specifically, it called for additional funding for States to
          conduct more surveys. AHFSA also offered several additional recommendations that
          provide more operational approaches to our recommendations. It supported the notion
          of greater collaboration between the Networks and the States, the public release of
          facility-specific outcome data, and called for the Conditions for Coverage to require
          reporting of adverse events to the States.

          We acknowledge in the report that competing budget demands is a major reason for the
          lack of surveys and recognize that many of recommendations will require additional
          funds. We address the concern about funding of the State agencies by calling for HCFA
          to determine an appropriate minimum cycle for conducting surveys. HCFA itself
          addressed this issue in its comments by noting that the President’s Budget for FY 2001
          calls for a substantial increase in funding for ESRD surveys. However, our
          recommendations require more than just additional funding — they also require strong
          leadership on the part of HCFA.


External Review: A Call for Greater Accountability   36                   OEI-01-99-00050
American Association of Kidney Patients Comments

          The American Association of Kidney Patients (AAKP) strongly agreed with our
          recommendations and believed that our recommendations could result in better care for
          patients. AAKP pointed out its own concerns with the variability among Networks and
          States. It believes that the greater accountability we call for will lead to more consistent
          performance across Networks and States. AAKP also highlighted HCFA’s current
          efforts underway to release performance data publicly and asked us to ensure that funding
          to implement our recommendations does not come at the cost of funding patient
          activities.

          We are pleased to receive such strong support from AAKP which represents the patients
          that we aim to protect. In our report we acknowledge HCFA’s effort to release
          performance data to the public and we believe it is a step in the right direction.
          Furthermore, we underscore AKKP’s point that funding for oversight activities should
          not jeopardize patient care.




External Review: A Call for Greater Accountability   37                   OEI-01-99-00050
                                                                                 APPENDIX A


                                                     Methodology

HCFA

          We interviewed HCFA officials responsible for the ESRD program at both the Central
          Office and the four lead ESRD regional offices (Boston, Kansas City, Dallas, and
          Seattle.) This included all the project officers for the Networks and HCFA officials
          involved with the State survey and certification programs. We gathered information on
          how HCFA evaluates the Networks and State agencies, their perceptions on the strengths
          and weaknesses of the program, and any recommendations they had for improving the
          oversight of dialysis facilities.

ESRD Networks

          We conducted a mail survey of all 18 Networks to gather information on the types of
          performance data Networks use and collect, on how they handle complaints and adverse
          events, and how often they conduct on-site surveys. All 18 Networks responded. In
          addition to our survey, we received and analyzed the following documents from all the
          Networks: 1997 annual reports, 1998 annual reports, and 1998 responses to
          complainants.

          We selected nine Networks to participate in telephone interviews. We chose at least two
          Networks from each of the four lead HCFA regions. Network staff and board members
          participated in the interviews, which covered topics related to the oversight of facilities
          such as quality improvement projects and other sources of performance data, complaint
          procedures and trends, and their relationships with HCFA and State agencies. We also
          selected two Networks for site visits lasting several days. These visits included
          interviews with staff, board members, patients, and renal professionals. While on-site we
          examined their complaint files. Three additional Networks received site visits that
          involved discussions with Network leadership about oversight in general.

State Survey Agencies

          In order to gain information on the State agencies we analyzed HCFA’s On-line Survey,
          Certification and Reporting System (OSCAR) to determine the frequency with which
          State agencies conduct Medicare certification and complaint surveys of ESRD facilities
          which includes both transplant facilities and dialysis facilities. We pulled two data sets
          from the system: one in May 1999 and one in August 1999. We analyzed these data sets
          using SAS and Excel software programs. In addition, we interviewed five State survey
          agencies. We also observed a dialysis facility survey.


External Review: A Call for Greater Accountability        38              OEI-01-99-00050
                                                                                 APPENDIX A


Stakeholder Interviews

          We interviewed several representative of organizations involved with dialysis issues.
          These organizations included professional groups, consumer groups, Federal agencies,
          and Federal contractors.

Literature Review

          Throughout our evaluation, we reviewed various documents including statutes and
          regulations, Federal agency documents, policy reports, media articles, and scientific
          journal articles.




External Review: A Call for Greater Accountability   39                   OEI-01-99-00050
                                                                                  APPENDIX B


       Major Sources of Clinical Performance Data for ESRD

          Below we highlight several of the major sources of performance data for dialysis
          facilities.

          HCFA’s Clinical Performance Measures Project. Since 1994, with the help of the
          Networks and facilities, HCFA has collected a set of measures on a national sample of
          patients. In 1999, the set included 16 measures such as urea reduction ratio, Kt/V,
          hematocrit, hemoglobin, and type of vascular access. Facilities abstract the measures
          from patient medical records and Networks validate a sample of the data. HCFA
          disseminates aggregate measures at the national and Network level to the renal
          community and the public. The sample does not allow facility-specific analysis.

          Medicare Billing and Enrollment Data. HCFA claim and administrative forms are a
          rich source of information on patients and facilities, such as patient hematocrit levels,
          urea reduction ratios, and mortality. Since 1996, HCFA has used this data to generate
          confidential facility-specific reports on anemia management for its National Anemia
          Cooperative Project. A few Networks reported using the anemia data to monitor facility
          performance and to identify facilities in need of interventions. HCFA currently uses these
          data to generate various facility-specific reports for facilities, Networks, States, and the
          public.

          United States Renal Data System. Funded by the National Institutes of Health and
          partially funded by HCFA, this database compiles numerous data sources on renal
          patients, most of which come from Medicare billing data. Each year, an annual data
          report is disseminated to the public that provides trend information at the Network and
          national level. Previously, the USRDS generated confidential, facility-specific
          standardized ratios for mortality, hospitalization, and transplantation for facilities, which
          have been helpful in identifying regional problems in the quality of care. These reports
          are now being generated by HCFA. Most Networks reported that they use the USRDS
          methodology, or one based on it, to calculate their own standardized mortality ratios for
          facilities. A few Networks reported that they use the facility-specific ratios generated by
          USRDS to identify poor performers.

          National Surveillance of Dialysis Associated Disease. This voluntary survey, started in
          the early 1970s by the Centers for Disease Control and Prevention, monitors infectious
          disease rates, such as hepatitis B, within facilities. It also collects facility-specific
          information on vaccination rates, vascular access, staffing ratios, and reuse of
          hemodialyzers. The data are disseminated to the public showing trends at the Network
          and national level. Every Network, except one, reported that they use these data to help
          determine future topic areas for quality improvement projects, to provide baseline data,

External Review: A Call for Greater Accountability   40                    OEI-01-99-00050
                                                                                APPENDIX B


          and/or to identify poor performers. These data are not readily available to the public or
          the States.

          Network Databases. Networks maintain their own databases that vary from Network to
          Network. Some of the elements Networks collect on their own and some they obtain
          from the databases listed above. A few Networks disseminate confidential facility-
          specific reports to facilities. Network data is not regularly available to HCFA, States, or
          the public.




External Review: A Call for Greater Accountability   41                  OEI-01-99-00050
                                                                                       APPENDIX C


                                                     Comments

          In this appendix we include the full text of comments of the parties that responded to our
          two draft reports. We present them in the following order:

                               C         HCFA

                               C         Forum of the End Stage Renal Disease Networks

                               C         Association of Health Facility Survey Agencies

                               C         American Association of Kidney Patients




External Review: A Call for Greater Accountability       42                     OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   43   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   44   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   45   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   46   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   47   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   48   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   49   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   50   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   51   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   52   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   53   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   54   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   55   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   56   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   57   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   58   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   59   OEI-01-99-00050
                                                                 APPENDIX C




External Review: A Call for Greater Accountability   60   OEI-01-99-00050
                                                                             APPENDIX D


                                                     Endnotes

1. Section 1881(c) of the Social Security Act.

2. 42 C.F.R. sec. 405 subpart U.

3. Currently, there are about 19 States with licensure laws. Glenda M. Payne, “Licensed,
Certified, Accredited: What are the Differences for the Dialysis Unit?” Nephrology News and
Issues, September 1999, 47.

4. In order to qualify, individuals must be fully insured under Social Security or be a dependent of
someone who is. In 1996, about 8 percent of individuals with ESRD who needed treatment did
not qualify for Medicare coverage. U.S. House of Representatives, Committee on Ways and
Means, 1998 Green Book, (Washington, DC: Government Printing Office), 162.

5. 42 C.F.R. sec. 413.174.

6. For media accounts see: Kurt Eichenwald, “Death and Deficiency in Kidney Treatment,” The
New York Times, December 4, 1995, 1; K. Eichenwald, “At Big Kidney Chain, Deals for
Doctors, Ruin for Rivals,” The New York Times, December 5, 1995, 1; K. Eichenwald, “Making
the System Work in Kidney Patients’ Favor,” The New York Times, December 6, 1995, 1;
Wayne Woolley, “Dialysis Clinic Accused of Fraud: Ex-administrator Says Sinai Facility Had too
Many Patient Deaths, Safety Infractions,” The Detroit News, January 1, 1998, C1; Patrick
O’Neill, “Complaints lead to look at dialysis centers, Portland Oregonian, October 19, 1998, B1;
Patrick O’Neill, “Patients Get Wrong Mixture in Dialysis,” Portland Oregonian, February 13,
1999, D1; Patrick O’Neill, “Dialysis problems increasing, official says,” Portland Oregonian,
February 17, 1999, A1; Patrick O’Neill, “Nerves Fray for Dialysis patients Cost-Cutting and
Ownership Changes Highlight a New Breed of Treatment Centers,” Portland Oregonian,
February 23, 1999, B1.

7. It is a common practice for facilities to reuse hemodialyzers. Facilities that reuse must adhere
to special protocols to prevent the spread of blood borne diseases.

8. U.S. Renal Data System, USRDS 1999 Annual Data Report, National Institutes of Health,
National Institutes of Diabetes and Digestive and Kidney Diseases, Bethesda, MD, April 1999:
26.

9. Health Care Financing Administration, Department of Health and Human Services, Highlights
from the 1999 Clinical Performance Measures Project, http://www.hcfa.gov/quality/3m.htm,
printed February 7, 2000.

10. Ibid.

External Review: A Call for Greater Accountability      61             OEI-01-99-00050
                                                                              APPENDIX D


11. William M. McClellan et al., “Variable Mortality Rate Among Dialysis Treatment Centers,”
Annals of Internal Medicine 117 (1992): 332-336; William M. McClellan et al., “Facility
Mortality Rates for New End-Stage Renal Disease Patients Implications for Quality
Improvement,” American Journal of Kidney Diseases 24 (August 1994) 2: 280-289.

12. Jeffrey C. Fink et al., “Hemodialysis Adequacy in Network 5: Disparity Between the States
and the Role of Center Effects,” American Journal of Kidney Diseases 33 (January 1999) 1: 97-
104; Steven D. Helgerson et al., “Improvement in Adequacy of Delivered Dialysis for Adult In-
Center Hemodialysis Patients in the United States, 1993 to 1995,” American Journal of Kidney
Diseases 39 (June 1997) 6: 851-861; James A. Delmez et al., “Hemodialysis Prescription and
Delivery in a Metropolitan Community,” Kidney International 41 (April 1992) 4: 1023-1028.

13. William M. McClellan et al., “Mortality in End-Stage Renal Disease Is Associated with
Facility-to-Facility Differences in Adequacy of Hemodialysis,” Journal of the American Society of
Nephrology 9 (October 1998) 10: 1940-1947.

14. Pushkal P. Garg et al., “Effect of the Ownership of Dialysis Facilities on Patients’ Survival
and Referral for Transplantation,” The New England Journal of Medicine 341 (November 25,
1999) 22: 1653-1660.

15. Ibid, 1659.

16. USRDS Annual Data Report: 165-167.

17. USRDS Annual Data Report: Reference Tables, Table I.13.

18. Mark E. Neumann, “A Buying Slowdown?” Nephrology News and Issues July 1999, 30-31.

19. The composite rate is not routinely updated like the rest of Medicare payments. The
composite rate was established in 1983. It was reduced by $2 in 1986 and increased by $1 in
1991. Recent legislation increased it by 1.2 percent in January of 2000, and another 1.2 percent
increase will occur in January 2001.

20. This project was previously called the ESRD Core Indicators Project. In 1998, HCFA
contracted with PRO-West, a professional review organization, to develop performance measures
based on the National Kidney’s Foundation Dialysis Outcome Quality Initiative clinical practice
guidelines. As a result, the previous clinical indicators under the Core Indicators Project were
replaced with new but similar clinical performance measures.

21. Highlights from the 1999 Clinical Performance Measures Project.

22. ESRD Network of Florida (#7), 1998 Annual Report.


External Review: A Call for Greater Accountability   62                 OEI-01-99-00050
                                                                              APPENDIX D


23. ESRD Network of Texas (#14), 1998 Annual Report.

24. For examples of Networks that collect facility-specific data see 1998 Annual Reports for: The
ESRD Network of New England (#1), Southeastern Kidney Council (#6), The Renal Network
(#9/10), and ESRD Network of Texas (#14).

25. Social Security Act 1881(b).

26. In all of 1997 and 1998, Networks made only two recommendations to HCFA to sanction
facilities.

27. If a patient health and safety issue is involved the only sanction that HCFA or the States can
take is to terminate the facility from the Medicare program. Other types of sanctions, such as
denial of payments or reduction of payments, can only be taken when the problem identified does
not jeopardize patient health and safety. See 42 C.F.R. sec. 405.2180 and 405.2181.

28. Networks reported that HCFA, in one case in particular, did not support a Network’s
recommendation for sanction. As a result the Network felt powerless to resolve future problems
because facilities in the area perceived that HCFA would not support the Networks. Another
Network recently tried to avoid this situation by successfully encouraging a facility to voluntarily
withdraw from the Medicare program rather than recommend sanctions to HCFA. However,
HCFA reported that they viewed this approach as the Network trying to protect the facility since
the provider can still run another facility elsewhere. Many Networks are now reluctant to take
this approach, leaving the Networks with little they can do to enforce standards beyond applying
peer pressure.

29. Social Security Act 1881(b) (8).

30. See http://www.hcfa.gov/stats/pufiles.htm

31. Office of Inspector General, “Know Your Number” Brochure: Perspectives of Dialysis
Patients, OEI-06-95-00320, January 1997: 7.

32. HCFA, Network Manual, section 755.2.

33. HCFA has established complaints as a top priority for the State survey agencies; it lists
complaints third out of 12 workload priorities for the States. Fiscal year 2000 State Survey and
Certification Budget Call Letter, July 7, 1999.

34. In response to our survey, the 18 Networks reported referring 49 complaints to the State
survey agencies in 1998.



External Review: A Call for Greater Accountability   63                 OEI-01-99-00050
                                                                               APPENDIX D


35. Until recently there was no national database for Networks to log their complaint activity.
HCFA recently developed a central database system for the Networks, the Standard Information
Management System (SIMS), that should help standardize complaint information across all
Networks and provide national information in the future. Most Networks publish data on their
own complaints in their annual reports and some Networks even provide a breakdown by type.
The Forum of ESRD Networks conducted a national analysis on complaints in its 1997 summary
report that contains data from all 18 Networks. See Forum of ESRD Networks, End Stage Renal
Disease Network Program Annual Report Summary 1997: 20-21.

36. In order to conduct this review, we grouped complaints into five categories. 1) technical
issues involving clinical expertise of staff and/or water treatment etc., 2) service quality issues
involving patient comfort such as temperature, waiting times, friendliness of staff, the number of
staff available, etc., 3) educational/informational issues involving calls where individual are
looking for answers to specific questions, 4) disruptive patient issues involving violent or
misbehaving patients, and 5) unknown issues involving contacts that we could not discern their
nature from the documents we reviewed. Some complaints fit into multiple categories and were
counted as such. It is also important to note that the comprehensiveness of the complaint logs we
received varied substantially. We do not intend for this analysis to provide concrete numbers but
rather to demonstrate an overall trend.

37. One Network wrote a letter to HCFA documenting the lack of collaboration between the
State and the Network. Northwest Renal Network (# 17), Recommendations for Improvements
in the States of DHS and ESRD Networks Cooperative Relationship, September 1999.

38. Networks occasionally visit facilities to provide technical assistance, look into specific
problems, or investigate complaints. However, HCFA does not fund them to perform routine on-
site surveys.

39. Our analysis is of ESRD facilities that includes both dialysis facilities and renal transplant
centers. According to USRDS 1999 Annual Data Report p. 165, there were 241 centers
providing renal transplants in 1997. This number has been relatively stable over recent years. Our
analysis also includes both initial surveys and recertification surveys.

40. The data shows that as of the May 1999, the average time since the last survey was 3.2 years
for free-standing facilities and 4.2 years for hospital-based facilities. This suggests surveyors may
be targeting free-standing facilities, which may be subject to less external oversight than hospital-
based facilities.

41. An unpublished HCFA-funded study found a similar trend. The study showed that in 1993,
59.4 percent of free-standing facilities received a certification survey; in 1994 36.1 percent; and in
1995, 22.6 percent. The Lewin Group, Inc. and Johns Hopkins University, “Facility
Accreditation and Certification for ESRD Study: Evaluation of the Effectiveness of the Current

External Review: A Call for Greater Accountability   64                  OEI-01-99-00050
                                                                                APPENDIX D


End-Stage Renal Disease Survey and Certification and the Potential of Integrating Private
Accreditation,” unpublished draft May 30, 1997, for the Health Care Financing Administration.

42. Although we were unable from the data set we pulled from HCFA to determine the number
of initial versus certification surveys, HCFA did provide us with the actual number of initial
surveys conducted each year. We used the numbers of initial surveys provided by HCFA to
calculate the number of recertification surveys and found that this backlog cannot be solely
attributed to the recent growth in ESRD facilities. The number of initial surveys conducted each
year increased only 24 percent since 1993, from 221 initials in 1993 to 273 initials in 1998. But
we have seen a 72 percent decrease in the number of recertification surveys conducted each year
since 1993. In 1993, over half of all facilities received a recertification survey. By the end of
1998, only 10 percent of all facilities received a recertification survey. At this rate of 10 percent a
year, facilities will receive a recertification survey once every 10 years.

43. By statute, States must survey nursing homes once every 12 months and home health
agencies once every 36 months. Sections 1819, 1919, and 1891 of the Social Security Act.

44. Fiscal year 2000 State Survey and Certification Budget Call Letter, July 7, 1999.

45. See 42 C.F. R., sec. 405.2136.

46. The Conditions do not give the medical director the authority to intervene in the care of a
patient under another attending physician, although some facilities or corporations may give such
authority. In a recent letter to a Network, HCFA stated, “Significantly, the end-stage renal
disease regulations do not explicitly empower a physician-director with the authority to take
independent action with respect to patients attended by other physicians.” Correspondence to
Glenda Harbert, Executive Director of Network 14, from Kay Hall, Project Officer, Division
Clinical Standards and Quality, Health Care Financing Administration, on November 9, 1998.

47. HCFA, State Operations Manual, Section 4009.

48. HCFA offers basic and advanced training programs for surveyors regularly throughout the
year. In fact, for fiscal year 2000 HCFA has four training classes scheduled specific to dialysis
facilities. HCFA’s basic training covers general topics related to the survey process in general, as
well as, important technical information specifically related to dialysis facilities.

49. The most comprehensive study undertaken of medical injuries was the Harvard medical
practice study. In that effort, the study team reviewed the records of about 30,000 patients
hospitalized in New York State during 1984. It found that adverse events occurred in about 4
percent of the hospitalizations and negligent adverse events in about 1 percent of the cases. See
Troyen A. Brennan et al, “Incidence of Adverse Events and Negligence in Hospitalized Patients,”
The New England Journal of Medicine 324 (February 7, 1991) 6: 370-76.


External Review: A Call for Greater Accountability   65                   OEI-01-99-00050
                                                                               APPENDIX D


A more recent study focusing on a large teaching hospital affiliated with a medical school and
using a somewhat different methodology came up with even more disturbing results. It found that
17.7 percent of the 1,047 hospitalized patients reviewed received inappropriate care resulting in
serious adverse events — ranging from temporary disability to death. See Lori B. Andrews et al,
“An Alternative Strategy for Studying Adverse Events in Medical Care,” The Lancet 349
(February 1, 1997) 309-313.

50. Some States licensure laws, such as Texas, require facilities to report adverse events to the
State survey agency.

51. For more information see Department of Health and Human Services, Office of Inspector
General, External Review of Hospital Quality: The Role of Accreditation, OEI-01-97-00051, July
1999.

52. Facilities do report events involving medical devices to the Food and Drug Administration
and report outbreaks of infectious diseases to the Center for Disease Control and Prevention.

53. The Network evaluation form covers the 10 topic areas such as quality improvement
projects, sanctions and referrals, patient grievance, and information management. The form does
not contain any objective criteria for the project officer to use but rather leaves the evaluation up
to the project officer’s judgement. For example, “C.1 To the satisfaction of the project officer,
the Network has developed and implemented at least one quality improvement project in option
year 1, unless it was otherwise directed by HCFA.” and “C.4.I. Where appropriate to the
satisfaction of the project officer, the Network has assisted patients and facilities in resolving
grievances.”

54. The one Network that received two unsatisfactories involving sanctions and referrals.
According to the comments attached by the project officer, this Network was not making
appropriate referrals to HCFA for sanctions, was not sharing requested information with HCFA,
and was inappropriately counseling a facility to withdraw from the Medicare program.

55. Highlights from the 1999 Clinical Performance Measures Project.

56. The HCFA name for validation surveys is Federal monitoring surveys.

57. In response to our series of reports on hospital quality oversight, HCFA has pledged to re-
examine the SAQIP program and reevaluate its utility as a method for oversight for State survey
agencies. In addition, HCFA intends to develop a performance measurement based system for
evaluating State survey agencies. This system would provide more direct, timely feedback to
States on clear criteria for performance. See the Office of Inspector General, The External
Review of Hospital Quality: A Call for Greater Accountability, OEI-01-97-00050, July 1999.



External Review: A Call for Greater Accountability   66                  OEI-01-99-00050
                                                                               APPENDIX D


58. Of course, the accreditation system has a number of deficiencies of its own. We addressed
these in our recent reports on hospital quality oversight. See Office of Inspector General, The
External Review of Hospital Quality: A Call for Greater Accountability, OEI-01-97-00050, July
1999.

59. It has been suggested that the current payment policies create disincentives for facilities and
physicians to provide optimal care. Facilities receive a monthly composite rate regardless of the
length or the complexity of the dialysis provided. Similarly, Medicare reimburses nephrologists at
a monthly, capitated rate regardless of the complexity of the patient’s condition or the frequency
of visits. In addition, physicians may bill separately for inpatient hospital visits the same as other
inpatient stays, which are not capitated. This often results in a financial benefit for nephrologists
when their patients are hospitalized.

Others have also pointed out that the fragmented payment system makes it difficult to focus
accountability. Facilities and nephrologists each receive separate payments from Medicare. Yet,
each depends on the other to perform its function. The nephrologist must determine the
appropriate treatment regimen and the facility must carry it out correctly in order for the patient
to receive adequate care. Yet, Medicare payment policy does not hold the facility or the
nephrologist accountable for working together.

In 1991, Congress asked the Institute of Medicine (IOM) to determine the impact that the
reimbursement rate had had on the quality of care. Although the IOM found no demonstrative
evidence that the reimbursement rate was impacting negatively on quality, it did find suggestive
evidence. As a result, it recommended that “a quality assessment and assurance program should
be implemented.” In June of 1999, the Medicare Payment Advisory Commission recommended
an increase in the composite rate in order to improve the quality of dialysis care. It further
recommended that nutritional therapies for dialysis patients be under a separate payment in order
to encourage facilities to provide the appropriate nutritional payments. More recently, in March
2000, the Medicare Payment Advisory Commission, again called for an increase in the composite
rate, as well as to risk adjust payments for patients enrolled in Medicare+Choice.

For further discussion on this topic, see the following articles: Alan Hull, “Impact of
Reimbursement Regulations on Patient Management, ”American Journal of Kidney Diseases 20
(July 1992) 1 suppl. 1: 8-11; Allen Nissenson and Richard Rettig, “Medicare’s End-Stage Renal
Disease Program: Current Status and Future Prospects,” Health Affairs 18 (January/February
1999) 1: 161-179; Eli A. Friedman, “End-Stage Renal Disease Therapy: An American Success
Story,” Journal of the American Medical Association 275 (April 10, 1996) 14: 1118-1122; Renal
Physicians Association correspondence to Murray K. Ross, Executive Director of the Medicare
Payment Advisory Commission, May 10, 1999; Medicare Payment Advisory Commission, Report
to the Congress: Selected Medicare Issues, June 1999, 135-148; Medicare Payment Advisory
Commission, Report to the Congress: Medicare Payment Policy, March 2000, 129-147; Institute


External Review: A Call for Greater Accountability   67                  OEI-01-99-00050
                                                                               APPENDIX D


of Medicine, Kidney Failure and the Federal Government (Washington, D.C.: National Academy
Press, 1991), 17.

60. Mark R. Chassin et. al., “The Urgent Need to Improve Health Care Quality: Institute of
Medicine National Roundtable on Health Care Quality,” Journal of the American Medical
Association 280 (September 16, 1998) 11: 1000-1005.

61. In 1995 HCFA did rewrite the interpretive guidelines that offer directions to State surveyors
to determine compliance with the Medicare Conditions for Coverage. The new guidelines
increased the focus on patient-care processes and outcomes.

62. The Joint Commission on Accreditation of Healthcare Organizations (JCAHO) standards for
hospitals articulate the responsibility of the governance body. The TransPacific Renal Network
(#17) is actually looking to adapt the JCAHO standards for use for dialysis facilities in its region.
HCFA proposed Conditions of Participation for hospitals also address this issue.

63. The June 17, 1996, draft of the Conditions for Coverage for dialysis facilities moves in this
direction: “Condition: Governance. The dialysis facility is under the control of an identifiable
governing body or designated person(s) so functioning, with full legal authority and responsibility
for the governance and operation of the facility, the management and provision of all dialysis
services, fiscal operations, relations within the ESRD Networks, the development of policies on
patient health and safety, and the quality assessment and performance improvement program. The
governing body must appoint a qualified administrator who is responsible for the daily operations
of the facility.”

64. The draft Conditions for dialysis facilities move toward holding the medical director more
accountable by inserting, “The dialysis facility must have a medical director who is responsible for
the overall delivery of patient care and outcomes.” The current Conditions of Participation for
nursing homes have similar language, and concerns have been raised about how to interpret this
language: “The facility must designate a physician to serve as medical director. (2) The medical
director is responsible for--(i) implementation of resident care policies; and (ii) The coordination
of medical care in the facility.” (42 C.F.R., sec. 483.75(i))

65. The draft Conditions for dialysis facilities address this issue, “Standard : Furnishing data and
information for end-stage renal disease program. The dialysis facility furnishes data and
information in the manner and at the intervals specified by the Secretary, pertaining to its patient
care activities and costs for administration of the program.” This may suffice as long as it is
interpreted to include patient outcomes. We do not suggest that HCFA write into the Conditions
specific outcomes or minimums facilities must meet. This will not allow for timely updates as
scientific knowledge advances.




External Review: A Call for Greater Accountability   68                  OEI-01-99-00050
                                                                               APPENDIX D


66. The draft Conditions for dialysis facilities also address this issue. “Condition: Quality
assessment and performance improvement. The dialysis facility must develop, implement,
maintain and evaluate an effective, data-drive, quality assessment and performance improvement
program. The program must reflect the complexity of the dialysis facility’s organization and
services (including those services provided under arrangement). The dialysis facility must take
actions that result in improvements in the facility’s performance across the spectrum of care.”

67. Several national corporations collect health status and patient satisfaction data routinely from
facilities nationwide. Several Networks also view patient satisfaction as an important measure of
quality. For example, The ESRD Network of New England (#1) developed a patient satisfaction
survey for facilities to use and the ESRD Network of Florida (#7) requires facilities to monitor
patient satisfaction in its “Criteria and Standards for Facilities.”

68. HCFA currently has three projects underway to develop and implement an extensive
computer system that will allow the electronic transmission of large quantities of data between
facilities and Networks, and Networks and HCFA. The creation of the Renal Management
Information System (REMIS) is the first project. This project will establish a new database to
replace the outdated Renal Beneficiary and Utilization System (REBUS). REMIS will house all
HCFA data on ESRD patients in one central database and allow for easier analysis of the data.
According to HCFA’s schedule, it will be up and running sometime during the summer of 2000.
The Standard Information Management Systems (SIMS) is the second project in this arena.
SIMS, which is scheduled to be as of December 1999, will connect all Networks with one another
and HCFA through a computer network. The third project, the Vital Information System for
Improvement of Outcomes in Nephrology (VISION), will develop software to electronically link
facilities with the Network to facilitate electronic data reporting. HCFA anticipates pilot testing
VISION early in the year 2000, with roll out to all facilities in 2001. This entire system will
electronically connect dialysis facilities to Networks, Networks to other Networks, and Networks
to HCFA.

69. HCFA has funded, through the Colorado Foundation for Medical Care, the University of
Michigan Kidney Epidemiology and Cost Center to produce facility-specific reports similar to the
unit-specific reports generated previously by the United States Renal Data System. See
www.med.umich.edu/kidney for more information.

70. HCFA has contracted with the Colorado Foundation for Medical Care to develop facility-
specific reports for State survey agencies to select facilities for surveys and to use to focus their
survey when on site. In the spring of 2000, HCFA plans to pilot test these reports with 8 States.
HCFA has contracted with PRO-West to develop facility-specific reports for the public. These
reports will be available sometime in the year 2000.

71. The Institute of Medicine called for HCFA to relate “major Conditions for Coverage to
patient outcomes.” Kidney Failure and the Federal Government, 295. We are concerned that

External Review: A Call for Greater Accountability   69                  OEI-01-99-00050
                                                                                APPENDIX D


the current language in draft Conditions may be too explicit. We suggest that HCFA not include
in the regulations specific performance measures with specific minimums that facilities must meet.
Instead, we suggest more flexible language that can allow for quicker revisions as medical
knowledge progresses. The draft Conditions state: “Standard: Performance expectations. The
interdisciplinary team must adjust the care plan and implementation strategies as assessment,
response, and patient preference information requires. If the patient is unable to achieve the
desired health outcomes, the appropriate member of the interdisciplinary team must provide an
explanation. If the desired health outcome is achievable but is not being achieve, the
interdisciplinary team must develop and implement an improvement program to achieve and
maintain the patient’s desired level of general health...The interdisciplinary team must assist and
support the patient in achieving and maintaining a desired dose of dialysis. The patient must
receive at least a delivered Kt/V not less than 1.2 (single pool) or a urea reduction ratio of at least
65 percent for a majority of treatments each hemodialysis patient.”

72. For an argument in support of the release of mortality information see: John M. Newmann,
“Why Should HCFA Release Center-Specific Mortality Information to Patients?” Nephrology
News and Issues, November 1999, 13-14.

73. See HCFA’s Medicare Compare at http://www.medicare.gov/comparison, and Nursing
Home Compare at http://www.medicare.gov/nursing/home.asp.

74. Medicare Payment Advisory Commission, Report to the Congress: Medicare Payment
Policy, March 2000, p 142.

75. The Lewin Group, Inc. and Johns Hopkins University, Facility Accreditation and
Certification for ESRD Study: Evaluation of the Effectiveness of the Current End-Stage Renal
Disease Survey and Certification and the Potential of Integrating Private Accreditation, also
called for a standard survey frequency and recommended it should be once every 1 or 2 years.

76. The President’s proposed budget for fiscal year 2001 for the Department of Health and
Human Services calls for a 14.4 percent increase over the fiscal year 2000 appropriated budget for
survey and certification activities. This funding will HCFA “to decrease the survey intervals for
ESRD facilities and non-accredited hospitals from once every six years to once every three
years.”p 87-88, released February 7, 2000.

77. Institute of Medicine, To Err is Human, Building a Safer Health System (Washington, D.C.:
National Academy Press 1999).

78. The Renal Physicians Association and the Forum of ESRD Networks have created a
workgroup to examine issues of patient safety in dialysis facilities.




External Review: A Call for Greater Accountability   70                   OEI-01-99-00050
                                                                             APPENDIX D


79. Colorado publishes on the Internet facility-specific reports on complaint investigations and
“occurrences” which include medical injuries. These reports provide a description of the event
and the facility’s response and the State’s evaluation.
See http://www/hfd.cdphe.state.co.us/info.asp.




External Review: A Call for Greater Accountability   71                OEI-01-99-00050
